<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:31 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senator Nelson.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        ROBERT DIZARD JR., CHIEF OF STAFF
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        MARIA PALLANTE, ACTING REGISTER OF COPYRIGHTS, COPYRIGHT OFFICE

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order.
    Good afternoon, everyone, and welcome.
    We meet this afternoon to take the testimony on the fiscal 
year 2012 budget request for the Library of Congress (LOC) and 
the Open World Leadership Center (OWLC).
    Senator Hoeven may be able to join us later, but he asked 
that we go ahead and proceed. And I hope to be joined by maybe 
one or the other of the other members of the subcommittee this 
afternoon as well.
    I want to welcome our witnesses today--Dr. James 
Billington, the Librarian of Congress and Ambassador John 
O'Keefe, Executive Director of the OWLC. It's always good to 
have you gentlemen here, and we look forward to hearing from 
you. It would be helpful if you could keep your statements 
brief, about 5 minutes, and we'll accept the rest of your 
testimony for the record.
    One thing we established at our first two hearings, and I 
think it bears repeating, is that we're in no position to 
entertain increases to the legislative branch budget this year. 
As you know, the fiscal year 2011 appropriations process has 
proven to be quite a challenge, as we find ourselves more than 
half the way through the fiscal year without a bill. And I 
don't imagine fiscal year 2012 is going to be an easy task for 
us, or an easy year for us, either. We're looking for your 
guidance in helping us to address your agencies' needs in 2012, 
but this is not the year for the ``nice to haves''. Senator 
Hoeven and I have looked forward to working with you in this 
regard, and we hope that we can create a partnership.
    Dr. Billington, I want to welcome you and your Chief of 
Staff, Robert Dizard Jr. On behalf of the subcommittee I want 
to thank you for your service as the Librarian of Congress for 
the last 23 years. Your service in this capacity is highly 
commendable, and is greatly appreciated.

           <greek-l>LOC deg.ACKNOWLEDGEMENT OF DAN MULHOLLAN

    I also want to take a moment to acknowledge Dan Mulhollan, 
Director of the Congressional Research Service (CRS), who's 
retiring this week--or next--after 42 years of service to the 
Congress. Dan joined the LOC in 1969 and has served as the 
Director of CRS since 1994. Prior to that he led CRS' efforts 
on issues such as the Watergate hearings, and a number of 
congressional reform efforts before becoming chief of CRS' 
Government Division in 1991.
    On behalf of this subcommittee I want to thank Dan for his 
invaluable service to the Congress, and to wish him all the 
best in his future endeavors.
    And I know that Dr. Billington is going to get that very 
last minute out of you before you leave. Please stand.
    Let's recognize Dan. Thank you.
    The LOC's fiscal year 2012 request totals $660.7 million, 
an increase of $23.3 million, or 3.6 percent more than the 
fiscal year 2010 enacted level. I understand that part of this 
increase is for information technology (IT) security 
enhancements totaling $2.75 million, and five additional full-
time equivalents (FTEs) for LOC.
    You're also requesting an increase of $4.6 million and 17 
additional FTEs for CRS.
    I also want to welcome Ambassador O'Keefe of the OWLC. Your 
budget request totals $12.6 million, an increase of $600,000, 
or 5 percent more than the current year. I strongly support the 
work of OWLC, and look forward to hearing your testimony, as 
well.
    Now we'll turn to Dr. Billington for his opening statement, 
followed by Ambassador O'Keefe.

             SUMMARY STATEMENT OF HON. JAMES H. BILLINGTON

    Dr. Billington. Thank you very much, Mr. Chairman. And 
thank you for recognizing Dan Mulhollan's extraordinary record 
of leadership.
    I should also point to one other person who hasn't appeared 
before--the Acting Register of Copyrights, Maria Pallante, who 
is here and is doing a wonderful job, as we look for new 
permanent leadership in both CRS and the Copyright Office.
    Mr. Chairman, the Congress of the United States has been 
the greatest patron of a library in the history of the world. 
All of us at LOC are deeply grateful that for the last 211 
years the Congress has created, sustained, and instructed its 
library through good times and bad. Thanks to the Congress, 
this institution has become, first of all, the world's largest 
collection of knowledge in almost all languages and formats; 
second, the closest thing we have to a mint record of American 
private sector creativity; and, third, the leading American 
public institution in both preserving information on the 
Internet and sharing collections online.
    LOC embodies key ideals on which this Nation was founded--
the rights of a free people to have unfettered access to the 
world's knowledge, to the record of our citizens' creativity, 
as well as material incentives for innovation. In this 
information age, what LOC is doing and can do for the United 
States of America is more important than ever. Our budget 
request for fiscal year 2012, Mr. Chairman, is designed to 
maximize our contribution to America and minimize the cost.
    Serving the Congress is LOC's top priority. And of course, 
CRS has--for almost a century--embodied the distinctive 
American ideal of a knowledge-based democracy. CRS serves the 
Congress exclusively, providing objective nonpartisan 
information and analysis for the first branch of Government, 
which also makes extensive use of our law library.
    In this time of rapid global change, both America's 
international economic competitiveness and our national 
security depend increasingly on knowledge and information drawn 
from every part of the globe. And that's precisely what you 
have in LOC--it's the mother lode of the Nation's strategic 
information reserve, increasingly essential for the successful 
work of the Congress and other Government agencies. Even as we 
speak, our Cairo office is systematically sending us the 
pictures, pamphlets, and social messaging of the current 
uprisings in the Middle East.
    LOC is making a unique contribution to education throughout 
America, and currently delivering--free of charge on the 
Internet--24.5 million items, mostly primary documents of 
American history and culture. We have also now begun to include 
in our widely used Web services similarly unique documents with 
expert comment from other world cultures, with authoritative 
commentary in seven languages, working with many of our 120 
partner institutions from all over the United States and the 
world. We're also working with more than 185 other U.S. 
partners from 44 States and 37 other national libraries in our 
congressionally mandated program for digital preservation.
    Almost all LOC programs provide one-of-a-kind national 
resources and services, services that no one else in either our 
public or private sectors arguably can reasonably be expected 
to replicate if we were to stop doing them.

             <greek-l>LOC deg.ADDRESSING FISCAL CHALLENGES

    Mr. Chairman, we want to address responsibly, at the same 
time, the massive fiscal challenges posed by the Federal 
deficit. For a number of years now, we've been submitting 
constrained budgets for which the committees have commended us. 
And, if we set aside the normal inflationary pay and price 
level increases that all Government agencies request, our 2012 
budget request would include less than 1 percent for our only 
two program increases in CRS and cybersecurity.
    Even under a best-case budget outlook, funding at the 
fiscal year 2010 level for both fiscal years 2011 and 2012 
would result in an effective budget cut of more than $31 
million, or 4.8 percent against the fiscal year 2010 base. This 
alone would require substantial program and staff sacrifices. 
And some of the reduction scenarios currently being proposed 
could cut to the bone and require us to take steps that not 
even past wars and depressions have forced the LOC to consider 
in its 211-year history.
    If faced with major cuts, we would have to ask ourselves 
where we should cut the core programs. In our de-acidification 
of brittle books and manuscripts that will then become 
unusable? In our cataloging and standards services for the 
Nation, that will increase the burden on already strained local 
and State libraries? In providing fewer books and magazine 
titles free to 800,000 blind and physically handicapped 
Americans, who generally read much more than sighted people?
    If we cut back our public services significantly, Mr. 
Chairman, we would reluctantly also have to consider 
furloughing or cutting back on personnel. Our dedicated, 
experienced, and multitalented staff account for 63 percent of 
LOC's overall budget, and 89 percent of CRS'. LOC is now doing 
far more work than in 1992, but with 1,076 fewer people on our 
staff, and half of those reductions have occurred just in the 
last 5 years.

                          PREPARED STATEMENTS

    In conclusion, I should say we are also critically 
dependent on sustaining the successful collections storage 
program at Fort Meade and ask for your approval of funds for 
construction of Module 5, which is included in the Architect of 
the Capitol's budget.
    America's oldest Federal cultural institution, Mr. 
Chairman, has become part of the infrastructure for innovative 
American leadership in the information age.
    I thank you again for your historic support of the LOC, and 
for your consideration of our fiscal year 2012 request.
    [The statements follows:]
             Prepared Statement of Dr. James H. Billington
    Mr. Chairman, Senator Hoeven, and members of the subcommittee: I am 
pleased to present the Library of Congress' (LOC) fiscal 2012 budget 
request.
    The Congress of the United States has been the greatest patron of a 
library in the history of the world. Mr. Chairman, all of us at LOC are 
deeply grateful for the Congress's support over the last 211 years.
    What the Congress created, sustained, and instructed its library to 
undertake through good times and bad has made this institution into--
  --the world's largest collection of knowledge in almost all languages 
        and formats;
  --the closest thing to a mint record of American private sector 
        creativity and innovation; and
  --the leading American public institution in both capturing transient 
        information on the Internet and sharing our collections online.
    In presenting our budget request for fiscal 2012, Mr. Chairman, I 
propose to answer three big questions that we have asked of ourselves--
and that you might well wish to ask of us at this time of so many 
pressing national concerns: What does LOC do that is important for the 
United States of America?
    LOC embodies key ideals on which this Nation was founded:
  --the right of a free people to have unfettered access to knowledge;
  --the necessity for a productive people to have material incentives 
        for innovation; and
  --the need to preserve the record of our citizens' creativity.
    Serving the Congress is LOC's top priority. LOC's Congressional 
Research Service (CRS) has--for almost a century--embodied the 
distinctive American ideal of a knowledge-based democracy. CRS serves 
the Congress exclusively. And LOC's law library also provides objective 
nonpartisan information and analysis to the first branch of Government.
    Never have the core activities of LOC been more important to 
America than now in the information age. Both our international 
economic competitiveness and our national security depend increasingly 
on knowledge and information drawn from every part of the globe. LOC is 
the mother lode of the Nation's strategic information reserve for the 
work of the Congress and other Government agencies. Even as we speak, 
our Cairo office is systematically sending us the pictures, pamphlets, 
and social messaging of the current uprisings in the Middle East.
    LOC is making a unique and original contribution to the all-
important crisis in K-12 education throughout America with its 
authoritative Internet outreach. We are delivering more than 20 million 
items free of charge, most of which are primary documents of American 
history and culture. We have also now begun to include in our widely 
used Web services similarly unique documents from other world 
cultures--drawing from our own collections and from many of our 135 
partner institutions from all over the United States and the world. We 
are also working with 167 other U.S. partners on our congressionally 
mandated program for digital preservation.
    A second--and crucial--question at this time is: Have we 
responsibly addressed the massive fiscal challenges posed by the 
Federal deficit, about which the Congress is understandably concerned?
    For a number of years now, we have been submitting constrained 
budgets. If we set aside the normal inflationary pay and price level 
increases that all agencies request, LOC in the last 4 years has asked 
for program increases averaging only 2.3 percent of the base budget. 
The committees have commended these modest requests.
    In fiscal 2012, LOC requests funding to meet a critical need to 
expand incident handling and response capacity to keep pace with the 
evolving IT security threat landscape. The enhancements include 
expanding the incident handling and response function to 24 hours a 
day, 7 days a week, 365 days a year. The enhancements also include 
advanced security incident and event monitoring, net flow analysis, and 
other systems and processes commonly used across other Government 
agencies.
    LOC also requests funding and 17 full-time equivalents for CRS, 
first requested in fiscal 2011, to broaden its expertise and strengthen 
analytical capacity in the areas of science and technology, healthcare, 
financial economics and accounting, and social policy related to 
employment, immigration, and the workforce. This funding will enable 
CRS to provide enhanced multidisciplinary analysis on complex and 
emerging policy issues before the Congress. Additional analytical 
capacity will also give CRS the long-term flexibility to adapt to 
rapidly changing issues and debates in these critical areas.
    These two program requests represent less than 1 percent of the 
fiscal 2011 continuing resolution base. The great bulk (77 percent) of 
our overall 3.45 percent requested increase is for the mandatory pay 
and price level increases of $18 million.
    LOC programs are not ``nice to have''. Almost all provide one-of-a-
kind national resources and services that no one else in either our 
public or private sectors can reasonably be expected to replicate.
    Even under a best-case budget outlook, funding at the fiscal 2010 
level for both fiscal 2011 and 2012 would result in an effective budget 
cut of more than $31 million, or 4.8 percent, against the fiscal 2010 
base. This alone would require substantial program and staff 
sacrifices. And some of the reduction scenarios currently being 
proposed could cut to the bone and require us to take steps that not 
even past wars and depressions have forced us to consider in LOC's 211-
year history. This possibility leads to a final question.
    How would we handle major budget cuts?
    We would have to ask ourselves where among the many services that 
we uniquely perform we should reduce funding: In our deacidification of 
brittle books and manuscripts that will then become unusable? In our 
cataloging and standards service that will increase the burden on 
already strained local and State libraries? In providing fewer books 
and magazine titles free to 800,000 blind and physically handicapped 
Americans who generally read much more than sighted people?
    Even if we cut back our public services significantly, we would 
reluctantly also have to consider furloughing or cutting back on 
personnel. Our dedicated, experienced, and multi-talented staff 
accounts for 63 percent of LOC's overall budget, and 89 percent of 
CRS'. LOC is now doing far more work than in 1992, but with 1,076 fewer 
people on the staff. Half of those reductions have occurred just in the 
last 5 years.
    We are also critically dependent on sustaining the successful 
collections storage program at Fort Meade and ask for your approval of 
funds for construction of Module 5--included in the Architect of the 
Capitol budget.
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
America's oldest Federal cultural institution has become part of the 
innovative infrastructure of America in the information age. I thank 
you again for your support of LOC and for your consideration of our 
fiscal 2012 request.
                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service
    Mr. Chairman, Senator Hoeven, and members of the subcommittee: 
Thank you for the opportunity to present the fiscal year 2012 budget 
request for the Congressional Research Service (CRS). In addition to 
presenting our budget request and describing some of the support we 
have provided the Congress over the past year, I would also like to 
describe how CRS' mission of being a pooled resource shared by the 
entire Congress enables it to provide the information and analysis 
necessary for the Congress to perform its legislative and oversight 
functions in an efficient and economical manner.
          <greek-l>loc deg.crs: pooled staff for the congress
    CRS has always viewed itself as an extension of congressional 
staff, a pooled resource that is available to all of the Congress. The 
range of its expertise and the disciplines that make up the 
informational and analytical capacity of CRS were intended to relieve 
Member and committee offices of the need to hire their own specialized 
experts to cover the many issues they confront on a daily basis. This 
was a primary rationale for the enhancement of CRS in the Legislative 
Reorganization Act of 1970.
    In that act, among other institutional changes, the Congress 
increased our permanent staff and the CRS was reconstituted from the 
Legislative Reference Service and established as a cost-effective 
shared resource available to every Member regardless of seniority, 
party or position, and to every committee. The House Committee on Rules 
Report on the 1970 act emphasized the importance of having such a 
nonpartisan resource accessible to all when it wrote that a shared 
staff would:

    ``Insure the equal availability of information to both Houses of 
Congress; insulate the analytical phase of program review and policy 
analysis from political biases and therefore produce a more credible 
and objective product and more easily develop common frames of 
reference and analytical techniques that would make such analyses more 
useful and meaningful to all committees.''

    The Rules Committee went on to stress the efficiency of such a 
shared research staff:

    ``Finally, the pooling principle underlying supplementary staffs 
makes them inherently more economical and efficient than dispersed 
staffs, for they can more easily reallocate resources as changing 
conditions and congressional needs warrant.''

    CRS was referred to as a ``research pool'' by the Senate Committee 
on Government Operations in describing a predecessor version of the 
1970 Legislative Reorganization Act.
    The House Committee's reference to CRS' ability to ``develop common 
frames of reference and analytical techniques that would make such 
analyses more useful and meaningful to all committees'' points to 
important hallmarks of CRS' work, namely its experts' familiarity with 
how issues are positioned in the legislative context, their knowledge 
of how the Congress and the law work and their insights into the 
decisionmaking processes of the executive agencies that implement the 
law. This, combined with institutional memory developed over years of 
working with Members and committees, make for a potent resource 
available nowhere else.
    We, of course, are prepared to do our part to achieve savings and 
contribute to the goal of efficient legislative branch operations. I 
feel that our request for additional staff in certain specialized areas 
is consistent with the vision of a CRS that efficiently serves all of 
the Congress. It is staff that can be shared with all Members and 
committees.
    We also plan to leverage web tools and client and management 
information systems to enable more focused and responsive support. In 
difficult budget times, CRS offers a model that achieves economies and 
savings and at the same time provides the expertise and resources the 
Congress needs to legislate in an informed manner and to effectively 
oversee the operations of Government.
               <greek-l>loc deg.support for the congress
    Highlights of the last session of the 111th Congress and CRS' 
preparations for the 112th Congress illustrate how CRS can bring to 
bear the breadth and depth of its expertise to provide continuing 
legislative assistance to Members and committees.
    Before the postelection session of the 111th Congress ended, CRS 
was planning for the 112th by identifying the issues that were likely 
to be on the legislative agenda, forming multidisciplinary teams around 
these current legislative issues, preparing and updating reports and 
positioning itself to help Members and committees more clearly 
understand the problems facing them and the country and identify and 
analyze options for dealing with them. We cluster this work around a 
current legislative issues framework which is an organizing principle 
for our collaborative work across the CRS and a primary means by which 
we present this work on our Web site.
    More than 160 issues were identified and, shortly after the 112th 
Congress convened, we had populated our Web site with relevant products 
and prepared overview issue statements for each of the issues. That 
array of analysis and information provides all Members access to the 
best thinking of CRS analysts and information professionals on the 
issues that are currently or likely to appear on the legislative 
agenda. The analysis and information are available to all. But just as 
important, if not more so, this body of work enables direct access to 
our experts, whose names, phone numbers and e-mail addresses appear on 
all of our reports. These experts stand ready to consult with Members 
and congressional staff, prepare tailored analyses of specific 
questions, and to regularly update their reports to reflect where 
issues are currently positioned in the legislative process.
    This anticipatory legislative planning work spanned several months 
and resulted in CRS being well placed to provide products and services 
to the incoming 112th Congress. However, as we all know, even the best 
planning cannot anticipate all issues that may suddenly confront the 
Congress. CRS has the analytical flexibility to address quickly 
emerging issues. For example, when the earthquake and tsunami struck 
Japan, CRS had reports on earthquakes, tsunamis, and relief efforts on 
its Web site within 24 hours. When security of nuclear plants quickly 
became an issue, CRS' body of work on nuclear energy and security was 
available and new reports, building on these previous reports, were 
added to provide the Congress with a full perspective on the crisis in 
Japan.
    In another example, the ousting of the President of Tunisia quickly 
fanned unrest in Egypt and other countries in the Middle East. As 
pressure mounted on President Mubarak to leave office, we quickly 
updated our reports on Egypt and other countries such as Bahrain, 
Yemen, and Libya that were experiencing popular uprisings and 
highlighted that body of work on the home page of our Web site. We also 
reorganized our current legislative issues framework for the Middle 
East to focus on the unrest that was engulfing the region. In addition 
to products focused on specific countries, analyses also treated the 
impact of the unrest on oil supplies, the security posture of the 
United States and the legal, military, and economic impacts of a no-fly 
zone over Libya. And, of course, our Middle East experts conducted 
numerous briefings and prepared tailored analyses of questions raised 
by the turmoil.
    The explosion of the Deepwater Horizon oil rig and its sinking in 
the Gulf of Mexico in April 2010 was another event that required CRS to 
mobilize its resources quickly. We prepared analyses of the 
implications of the spill and also posted new research resources on our 
Web site with links to news, relevant legislation, hearings in both 
chambers, and an oil spill events time line. CRS developed timely 
research and analytical support at every stage of the ensuing 
legislative process, including numerous hearings and development of 
legislative proposals. CRS specialists--with economic, scientific, and 
legal expertise--provided expert witnesses at hearings and collaborated 
with lawmakers on many aspects of Federal jurisdiction over Outer 
Continental Shelf resources, fisheries, worker safety, emergency 
response, insurance, and--after the well was capped--the use of moneys 
from the Oil Spill Liability Trust Fund for the Federal spill response 
and implications of the deepwater drilling moratorium.
    This confluence of our regular legislative planning work and the 
mobilization of our expertise in response to breaking events 
demonstrates how CRS can pool its resources and stand ready to serve 
the long- and short-term needs of the Congress. These first few months 
of the 112th Congress have underscored the contributions CRS can make 
to the policy debates in the Congress. CRS places the array of issues 
that the Congress is likely to face in a framework that is accessible 
and that discusses those issues in the legislative context in which 
they will be debated. And the CRS can respond quickly to events that 
can overtake the legislative agenda and demand the attention of the 
Congress and the country with focused analyses and ready availability 
of experts from all disciplines.
    I must also note another important aspect of our support of the 
Congress--our congressional operations work. We maintain a large body 
of reports and information on the procedures and operations of the 
Congress and these will soon be better integrated into our Web site 
offerings to make them more accessible. Our expertise on congressional 
procedure is unparalleled and we make that expertise available not only 
through reports and tailored work by legislative procedure analysts but 
also through an extensive education program of seminars on all aspects 
of the legislative process. We were able to bring this expertise to 
bear to assist the Senate in the confirmation process for Associate 
Justice Kagan and the impeachment proceedings against Federal District 
Judge Porteous, which resulted in his conviction and removal from 
office in December 2010.
    A number of high-profile events in the last session of the 111th 
Congress also demonstrate the breadth and depth of the support CRS 
provides to the Congress. 2010 saw enactment of major financial 
regulatory and healthcare legislation. With respect to the latter, CRS 
supported the Congress throughout the legislative process, including 
detailed analyses of proposals and numerous briefings and programs. CRS 
experts addressed such complex issues as the implications of changes in 
dependency coverage, establishment of State high-risk pools for 
individuals with pre-existing health conditions, the creation of small 
business health insurance tax credits, and also explored legal and 
policy issues associated with mandating that individuals purchase 
health insurance. After passage of the law, CRS prepared analyses of 
the numerous new entities created by the law as well as the steps 
needed to be taken in the rule-making process. Our attorneys have also 
tracked the continuing litigation over the validity of the law and 
analyzed the court decisions as they have been issued.
    With respect to the Dodd-Frank Wall Street Reform and Consumer 
Protection Act, lawmakers relied on CRS testimony, numerous reports and 
memoranda, personal consultations, programs and authoritative 
comparisons of legislative provisions contained in the House and Senate 
versions of the legislation. Our experts also supported congressional 
committees in overseeing the $700 billion Troubled Asset Relief Program 
(TARP) and examined other Federal assistance given to large financial 
institutions by the Federal Reserve.
    CRS analysis also addressed efforts in the last Congress to promote 
job creation and increase employment in the wake of the economic crisis 
and recession. Because of the severity of the recession and the 
subsequent slow pace of economic recovery, the Congress sought analysis 
and information on the relative depth of the recent recession compared 
to past recessions and on programs and policies that have the potential 
of helping unemployed workers secure work. CRS analyzed employment 
trends before and after the end of previous recessions, long-term 
unemployment and recessions, countercyclical job creation programs, the 
employment effects of infrastructure spending, and training programs 
available for unemployed workers.
    CRS provided support regarding numerous foreign policy issues in 
2010, including the wars in Afghanistan and Iraq, United States-
Pakistan relations, the Greek and European debt crises, trade issues 
with China, and Iran and North Korean sanctions. CRS experts also 
provided insight to the Congress as it began to explore the emerging 
areas of cyber security and other cyber operations, including the 
relationship between information operations and cyber warfare.
    Immigration reform re-emerged in 2010 and CRS was asked to assess 
various reform proposals as well as to analyze the actions that States 
were taking with respect to immigrants and border security. Tax experts 
analyzed the impact of various tax proposals including extending prior 
years' tax cuts. Military detainees, campaign finance, and gun control 
continued to be of congressional interest, the debates being influenced 
by recent court decisions. CRS attorneys and policy experts 
collaborated on analyses of these issues.
    The foregoing are examples of the degree of involvement of CRS in 
the legislative and oversight work of the last Congress as well as 
during the initial months of this Congress. The collaboration among 
multidisciplinary experts, the breadth of issue coverage, the ability 
to respond in the face of breaking events and the close proximity of 
CRS to the Congress all combine to enable CRS to serve efficiently as 
shared staff and a pooled resource to be drawn upon by all offices and 
committees of the Congress.
                 <greek-l>loc deg.customer satisfaction
    I noted in my testimony last year, that the CRS, at the direction 
of the conference on the legislative branch appropriations bill, 
contracted with LMI, a not-for-profit strategic consulting firm, to 
independently evaluate CRS' current staffing models and procedures to 
determine how effectively we are meeting our statutory mandate. LMI 
conducted Member and staff surveys and interviews, reported on best 
practices for research organizations geared to ensuring responsiveness 
to client needs, and assessed communication channels that would ensure 
that CRS remains aligned with the work of the Congress and the needs of 
its clients.
    LMI found a high degree of satisfaction with CRS products and 
services and found us to be a reliable, timely and authoritative source 
of expertise for the entire range of congressional clients. We are 
addressing areas in which LMI recommended improvements based on the 
feedback it obtained, including examining our product line, improving 
our Web site and options to ensure that CRS availability is aligned 
with the operations of congressional staff. It was gratifying to 
receive the confirmation that we are doing a good job of serving the 
Congress. However, there is always room for improvement and it is all 
the more imperative in these challenging budget times that we remain 
the most efficient and cost-effective resource for the Congress that we 
can be.
            <greek-l>loc deg.fiscal year 2012 budget request
    The CRS budget request for fiscal year 2012 is $117.1 million, with 
almost 90 percent devoted to pay and benefits for our staff. CRS 
continues to operate at its lowest staff level in more than three 
decades, and the small percentage of nonpay expenditures is limited to 
basic operational needs. The requested program increase will obtain 
additional specialized technical skills and policy expertise to expand 
the capabilities of CRS and meet the growing policy demands placed upon 
the Congress.
    An internal review of our capabilities to analyze the rapidly 
evolving and increasingly complex challenges facing the Congress 
identified gaps in the specialized skills needed for comprehensive 
multidisciplinary analyses and assessments. This budget request 
includes $2.7 million for 17 full-time equivalents (FTEs) needed to 
address these concerns. This will strengthen research capabilities in 
science, engineering and technology and the broader expertise in these 
areas will enable CRS to respond more readily to rapidly changing 
science and technology policy debates. The economic crisis and the 
major financial regulatory legislation enacted in its aftermath require 
additional CRS expertise in financial accounting, consumer protection 
and financial sector regulation in order to effectively support the 
Congress' legislative and oversight work in these areas. Additional 
expertise is also needed to support multidisciplinary research on 
policy options in the wake of the enactment of healthcare reform 
legislation as well as analysis of the potential effects of proposed 
changes in the organization, financing and delivery of healthcare 
services. Finally, CRS is asking for additional positions to address 
the many complex issues pertaining to employment, immigration, the 
workforce and the economic well-being of U.S. residents.
                               conclusion
    This budget request identifies resources that I feel are needed for 
CRS to provide the full scope of information and analysis that is 
relevant to the work of the Congress. CRS developed this spending plan 
to ensure that returns justified the investment while cognizant of the 
difficult budget climate. My colleagues and I are committed to 
continually examine every activity and program for efficiencies and 
reduce or eliminate costs where possible while fulfilling our mission. 
We are proud of our unique role as a pooled staff resource for 
nonpartisan, confidential, authoritative, and objective analysis for 
the Congress.
    I want to thank you for your support and the support the CRS has 
received over the years that has made it into the institution it is 
today. This will be the final time I will submit testimony before the 
subcommittee. After 17 years as Director and 42 years with the 
Congressional Research Service, I am retiring from congressional 
service in April. It has been an honor and privilege to have served in 
a variety of capacities in CRS, an organization that I believe is 
critical to maintaining an informed national legislature.
    Thank you.
                                 ______
                                 
 Prepared Statement of Maria A. Pallante, Acting Register of Copyrights
    Mr. Chairman Nelson, Senator Hoeven, and members of the 
subcommittee: Thank you for the opportunity to present the fiscal 2012 
budget request of the U.S. Copyright Office.
    We deeply respect the commitment of the Congress to address the 
Federal deficit and Government spending, and we appreciate your 
consideration of our budgetary needs. Indeed, our talented and 
hardworking employees have always carried out the work of the Copyright 
Office with a sense of purpose and are fully prepared to share in the 
burden of these austere times. We are not seeking additional full-time 
equivalents (FTEs) or funding for new projects at this time. However, 
we do wish to ensure that our existing staff is compensated 
competitively so that we may maintain a highly skilled and motivated 
workforce at a time when copyright law is increasingly complex and the 
Office's services are increasingly technical and in demand. 
Specifically, our requests are as follows:
  --A 1.7 percent increase ($0.843 million) more than fiscal year 2011 
        to support mandatory pay-related and price-level increases 
        affecting administration of the Office's core business systems 
        and public services; and
  --A 1.7 percent increase ($0.095 million) more than fiscal year 2011 
        in offsetting collection authority of the Copyright Licensing 
        Division to support mandatory pay-related and price-level 
        increases affecting the administration of the Office's 
        licensing functions.
                   <greek-l>loc deg.program overview
    The U.S. Copyright Office has been part of the Library of Congress 
(LOC) since 1870. The Office administers the copyright law of the 
United States, which traces its roots to the Constitution. Principal 
functions of the Office include administration of the national 
copyright registration and recordation systems and the mandatory 
deposit provisions for published works. Each year, the Office acquires 
hundreds of thousands of books, films, sound recordings, and other 
creative works of authorship to LOC's national collection. In fiscal 
2010, the Office transferred 814,243 copies to LOC at a value of 
approximately $33 million.
    The Office also administers the compulsory and statutory license 
provisions of the Copyright Act, including licenses for satellite and 
cable transmissions. The Licensing Division is responsible for 
collecting and investing royalty fees for later distribution to 
copyright owners, examining related documentation, and recording 
certain licensing documents.
    In terms of the larger U.S. economy, many authors, composers, book 
and software publishers, film and television producers, and creators of 
musical works depend on the registration system to help them enforce 
against copyright infringement. Based on a study released in 2009,\1\ 
these core sectors--whose primary purpose is to produce and distribute 
creative works--account for more than 6 percent of the U.S. domestic 
gross product, or $889 billion (reflecting 2007 data, the most recent 
year for which data are available). The core copyright industries also 
employed 5.6 million workers (4.05 percent of U.S. workers), and that 
number doubles to more than 11.7 million people (8.5 percent of the 
U.S. workforce) when the workers that help and support the distribution 
of these works are added into the equation. The Office facilitates 
transactions in the marketplace by assisting users of content to track 
the ownership of copyrighted content and the transfers and licenses of 
the exclusive rights afforded by law.
---------------------------------------------------------------------------
    \1\ Stephen E. Siwek, Copyright Industries in the U.S. Economy: The 
2003-2007 Report, prepared by Economists, Inc. for the International 
Intellectual Property Alliance (2009).
---------------------------------------------------------------------------
    The Office has a dedicated team of legal and policy experts who 
advise the Congress on domestic and international policy activities 
(for example, on legislation) and who also provide assistance and 
information to the judiciary and executive branch agencies (for 
example, on litigation of interest to the United States or on matters 
of bilateral or plurilateral trade). These duties are prescribed in 
chapter seven of the copyright law (17 U.S.C. Sec. 701).
    The Copyright Office is currently in a period of transition, 
following the retirement of Marybeth Peters on December 31, 2010, who 
directed the staff and functions for 16 years. As the Acting Register, 
I, along with LOC's Chief of Staff, have spent many weeks speaking with 
a broad spectrum of stakeholders in the copyright community, from book 
publishers to the technology sector, discussing with them the issues 
that are or should be priorities of the Office in the coming years.
    I have also been meeting with the managers and staff of the 
Copyright Office, individually or in small groups, to assess the views 
of those who work here and administer our public services, and to help 
set a path for our future business and the workplace environment of our 
employees. This assessment is still under way, but has already proved 
to be quite helpful to the Librarian and to me and should prove 
invaluable to the next Register, once appointed.
                    <greek-l>loc deg.program funding
    Funding for the Office derives from two sources--user fees and 
appropriations. More than 60 percent of the Office's budget is 
collected from fees paid for copyright registration, document 
recordation, and related services. The remaining operating budget 
covers the policy, legal, adjudicatory, and support operations. To 
ensure that fees represent current costs and market conditions, the 
Office undertakes a triennial fee study, the most recent of which was 
published in fiscal 2009 with another planned for fiscal 2012. The 
Office's fiscal 2011 budget request was approximately $55.5 million, 
approximately $34 million of which was funded by Office revenues.
           <greek-l>loc deg.registration of copyright claims
    The Copyright Office has made tremendous progress in the past year 
in reducing the backlog of claims that occurred with the transition to 
an electronic registration system. In fiscal 2012, we will continue our 
efforts to improve operational efficiencies in the electronic 
registration system, including our continued efforts to decrease 
processing times for registration and recordation filings. Today, the 
system allows claimants to file registration applications online and, 
in many cases, to upload a digital copy of the work to fulfill the 
deposit requirement.
    Since they were made available in July 2008, electronic filings 
quickly displaced the use of paper applications. To date in fiscal 
2011, electronic filings constitute more than 80 percent of all claims 
received. The Copyright Office typically handles more than 500,000 
copyright claims each year, representing well more than 1 million 
works. In fiscal 2010, the Office received 522,796 claims to copyright, 
and closed 682,148, of which it registered 636,527 claims. The Office 
answered almost 316,000 nonfee information and reference inquiries and 
served a substantial number of visitors to the Public Information 
Office and the Copyright Public Records Reading Room.
    In building the electronic system, the Office experienced a backlog 
of claims that was not unexpected given the major work process changes, 
temporary staff relocations, system testing and servicing, and 
widespread workforce training. The backlog peaked in 2009, but with 
support from LOC, the Office has reduced the backlog by hundreds of 
thousands of claims to around 167,000 as of this writing, while at the 
same time processing new claims at an average rate of 10,000 a week. We 
expect that our work on hand will fall to 150,000 claims within the 
next several weeks--an achievement that speaks to the dedication of our 
employees.
    One issue we will continue to explore going forward is what might 
constitute a reasonable amount of work on hand for purposes of 
assessing operational success. Because the electronic filing system 
allows for hybrid submissions (where the application and fee, submitted 
online, are followed up by a hardcopy deposit mailed separately), and 
because some claims require the Office to further correspond with the 
applicant, the Office will always have categories of work that cannot 
be immediately processed. These claims (presently about 95,000) do not 
contribute to a backlog but are in fact an anticipated and routine part 
of the Office's business operations.
    The Office is also cognizant of the need for quality assurance. 
While we are constantly exploring ways to improve our speed and 
efficiency, we remain mindful of our obligation to ensure the integrity 
of the registration records that we create and maintain. Fast 
processing times, although virtuous, cannot come at the expense of the 
accuracy and completeness of our public records.
        <greek-l>loc deg.copyright records digitization project
    We continue to make progress in our multi-year project to digitize 
the millions of disparate pre-1977 copyright records, many of which 
represent works still protected by copyright law. (Records for post-
1977 registrations are already available online.) This project is of 
utmost historic importance, as there is no complete back up of such 
records for preservation or security purposes. It is also of critical 
importance to our mission as an office of public record, making it 
easier for persons to locate copyright owners, analyze copyright term, 
and facilitate licensing. The records include registration information, 
assignments of copyrights, and licensing documentation going back to 
the beginning of the Copyright Office and may well implicate works 
published before the Civil War.
    In terms of legal relevance, the Office is prioritizing records for 
works published between 1923 and 1977, as in many instances, the 
copyright in such works has not yet expired. We plan to complete up to 
50 percent of the card catalog records from this era by the end of 
fiscal 2012. In so doing, we will continue to test imaging quality, 
clarity, create searchable metadata, and plan for cross-referencing of 
the imaged records.
           <greek-l>loc deg.licensing division re-engineering
    Business re-engineering efforts for the Licensing Division began in 
fiscal 2011. Thus far, the Office has completed an operational 
baseline, consulted with external stakeholders, and begun benchmarking 
exercises against entities with similar functions. The goals of this 
re-engineering effort are to:
  --decrease processing times for statements of account by 30 percent 
        or more;
  --implement an online filing process; and
  --improve public access to Office records.
    In fiscal year 2010, the Licensing Division collected more than 
$274 million in royalties from cable and satellite companies subject to 
statutory licenses, accrued more than $4.3 million in interest on 
royalties for the copyright owners, and distributed more than $249 
million to copyright owners. As part of our fiscal 2011 budget request, 
we sought an additional one-time authorization of $500,000 to cover any 
unforeseen re-engineering expenses. As always, any funds not expended 
will be returned to the royalty pools.
    In fiscal year 2012, the Licensing Division will continue to 
collect and distribute royalty fees and examine licensing 
documentation. It also will implement and refine its new processes and 
technology systems. It will test systems for online cable licensing and 
expects to implement an electronic version of its more complex 
statements of account, which currently take up to 14 months to process 
and which are typically of most interest to users. The Licensing 
Division will soon solicit proposals to develop the technical 
infrastructure required by re-engineering.
    As mentioned below, we are preparing, and will deliver to the 
Congress, a report on market alternatives to statutory licensing, due 
in August 2011. The Office stands ready to assist and advise the 
Congress with consideration of that report and to modify its operations 
should the Congress enact any changes to current law.
              <greek-l>loc deg.electronic serials project
    As more and more journals, magazines, and newspapers are ``born 
digital'', the Copyright Office is leading a LOC-wide effort to study, 
identify, obtain, and manage serials that publishers supply to us in 
electronic formats (eSerials). Although the project currently focuses 
on the mandatory deposit provisions under the law (i.e., the provisions 
requiring publishers to deposit copies of certain works with the LOC 
within 3 months of publication), it serves as a test bed for the intake 
of works by LOC through other mechanisms, including the registration 
system. The Copyright Office administers the mandatory deposit 
provisions of the law and is currently working with other LOC service 
units to develop an agencywide accommodation for eSerials. We expect 
the initial phase of that project to be completed in September 2011.
              <greek-l>loc deg.legal and policy activities
    The Office is never without complex work on the domestic and 
international policy fronts.
Online Piracy
    Throughout the past several weeks, the Office has been conducting 
meetings with a wide spectrum of stakeholders in order to explore the 
current state of online infringement of copyright law and sale of 
counterfeit goods via so-called ``rogue websites'' and possible 
mechanisms by which to combat such piracy and widespread 
counterfeiting. The Judiciary Committees of both the House and Senate 
of the 112th Congress are focused on this issue. On March 14, I 
testified on the issue before the House Subcommittee on Intellectual 
Property, Competition, and the Internet (testimony may be accessed at 
http://judiciary.house.gov/hearings/hear_03142011.html). We will be 
working very closely in support of the both the Senate and House as the 
Committees deliberate further and prepare legislative text.
Technical Clarifications
    At the end of fiscal 2010, the Office advised the Judiciary 
Committees of the need for legislation amending certain provisions of 
the Copyright Act to clarify the law, permit the Office to perform 
certain functions more efficiently by relying on electronic resources, 
and make technical corrections. The Copyright Cleanup, Clarifications, 
and Correction Act of 2010, based upon the Office's recommendations, 
was signed into law on December 9, 2010.
Termination of Transfers and Licenses by Authors
    During fiscal 2011, the Office provided the Congress with an 
analysis of the situation with respect to so-called ``gap grants'' 
under the termination provisions of title 17; specifically, the 
analysis concerned grants entered into before January 1, 1978 for works 
that were not created until January 1, 1978 or later and discussed 
certain possible clarifications. The Office led an extensive public 
consultation process that included holding a public comment process on 
its preliminary proposals related to the outcome of the report, as well 
as a related regulatory process for which it expects to issue a final 
rule in fiscal 2012. The law requires that authors record the notices 
they serve on licensees with the Copyright Office (pursuant to certain 
deadlines) as a condition of termination.
Digital Millennium Copyright Act (DMCA)
    In fiscal 2010, the Office concluded its fourth rulemaking on 
exemptions from the prohibition on circumvention of technological 
measures that control access to copyrighted works, as provided in 17 
U.S.C. Sec. 1201. The law requires that every 3 years the Copyright 
Office make recommendations to the Librarian of Congress regarding 
works that should be exempt from the statutory prohibition on the 
circumvention of access control mechanisms, provided the circumvention 
takes place in order to engage in noninfringing uses of copyrighted 
works.
    In the most recent iteration issued in July 2010, the Librarian 
announced six classes of works that are entitled to exemption. Notable 
exemptions include motion pictures on DVD, if the circumvention takes 
place for purposes of using short portions for the purpose of criticism 
or comment; software on mobile phones if circumvention is performed for 
the purpose of making the phone interoperable with other applications; 
and literary works distributed in eBook format for the benefit of the 
blind and visually impaired, provided that existing eBook versions of 
the title prevent access to the ``read-aloud'' function or to screen 
readers.
    Other recent regulatory actions would allow the LOC to demand the 
electronic deposit of published works available only online and allow 
the Copyright Office to accommodate on online submission of 
applications for group registrations involving photographs.
Report on Statutory Licenses
    The Copyright Office worked closely with the staff of the House and 
Senate Judiciary Committees as well as the Congressional Budget Office 
in addressing issues relating to passage of the Satellite Television 
Extension and Localism Act, which reauthorized the statutory license 
for satellite carriers to carry certain over-the-air broadcast signals. 
In that legislation, the Congress assigned the Copyright Office the 
task of preparing a comprehensive report to identify and explore 
marketplace alternatives to the statutory licenses in the law that 
allow for retransmission of over-the-air broadcast signals. To date, we 
have held a number of meetings with stakeholders and published a notice 
of inquiry seeking public comments. We expect to submit our report by 
the August 29, 2011 deadline. This is a significant study because, 
although the Congress has asked us on several occasions to study the 
cable and satellite statutory licenses for television programming, and 
we have on several occasions recommended the eventual phasing out of 
the those studies, this marks the first time the Congress has expressly 
asked us to make recommendations on how to phase out those licenses
Report on Pre-1972 Sound Recordings
    The Office is also in the midst of its study on the copyright 
treatment of pre-1972 sound recordings, which was mandated in the 
Omnibus Appropriations Act of 2009. Specifically, the Office has been 
directed to study the desirability of, and means for, bringing sound 
recordings fixed before February 15, 1972, into the Federal statutory 
copyright regime. Currently, State law governs such pre-1972 sound 
recordings, which in many cases is not well defined. Federal copyright 
law allows States to protect these pre-1972 sound recordings until 
February 15, 2067. Although behind schedule for this report, the Office 
began its preparatory work last year, including publishing a notice of 
inquiry for which we have received more than 50 comments thus far. We 
will follow up in the spring of 2011 with hearings or roundtables, and 
expects to prepare its analysis and recommendations in the summer and 
fall. We are grateful for the subcommittee's agreement to extend the 
deadline for our report from March 11, 2011 to December 31, 2011.
Litigation
    As in previous years, the Office assisted the Justice Department in 
a number of court cases involving copyright issues, including the 
preparation of an amicus brief filed with the Supreme Court in Costco 
Wholesale Corp. v. Omega S.A., a case concerning the first sale 
doctrine and the exclusive importation right that was affirmed by an 
equally divided court; and Golan v. Holder, a defense against a 
constitutional challenge to the ``copyright restoration'' provision of 
the Uruguay Round Agreements Act.
    The Office continued to spend significant time evaluating the legal 
and business implications of the ongoing Google book search litigation 
and proposed settlement agreement, including the broader implications 
of the proposed settlement on the mass digitization of books and the 
treatment of ``orphan'' works--works for which rights holders are 
unknown or cannot be located. The Department of Justice filed two 
statements of interest with the court on which the Copyright Office 
provided significant advice.\2\ The former Register of Copyrights, 
Marybeth Peters, also testified before House Judiciary Committee on the 
matter in 2009 about copyright concerns. On March 22, 2011, Judge Chin 
denied the parties' motion for approval of the proposed settlement, 
consistent with the recommendation of the U.S. Government. The Office 
is pleased with the court's opinion and will continue to monitor the 
progress of the case in anticipation of likely appeals. It will also 
continue to work with congressional committees, the parties and other 
stakeholders on policy issues raised by the case that are better suited 
to the Congress than the courts.
---------------------------------------------------------------------------
    \2\ See Statement of Interest of the United States of America 
Regarding Proposed Class Settlement (September 18, 2009) and the 
Statement of Interest of the United States of America Regarding 
Proposed Amended Settlement Agreement (February 4, 2010), both 
available at http://www.justice.gov/atr/cases/authorsguild.htm.
---------------------------------------------------------------------------
Accessible Works for the Blind and Individuals With Print Disabilities
    Copyright Office attorneys continued to spend considerable time in 
fiscal 2011 examining the ways in which the United States provides 
copyrighted works in accessible formats to the blind, visually impaired 
and print-disabled, as well as similar issues involving cross-border 
access to copyrighted works in the context of national exceptions for 
the blind, visually impaired, and print-disabled and international 
copyright treaty obligations. The Office has worked diligently with 
other U.S. Government agencies in preparing for and attending meetings 
of the World Intellectual Property Organization's (WIPO) Standing 
Committee on Copyright and Related Rights, which has this issue on its 
agenda.
    In fiscal year 2010, in partnership with WIPO, we organized and 
hosted a week-long training for developing countries and countries in 
transition, the focus of which was accessibility and standard for 
protection under copyright laws worldwide. The Office is currently 
working with LOC's National Library Service for the Blind, as well as 
with advocates for the blind and other stakeholders, to explore ways to 
improve standards, resources and responsible cross border movement of 
works in accessible formats, including through participation in a 
voluntary WIPO Stakeholders' Platform pilot project for the cross-
border transfer of accessible works.
    Both LOC and the Office are working with the Department of 
Education and other Federal Government agencies as part of a 
statutorily mandated commission on issues involving access to copyright 
works for the visually impaired in the context of higher education. I 
am the chairperson of the legal subcommittee of the Commission, which 
will deliver a report to the Congress before the end of fiscal 2012.
Anti-Piracy and Other International Developments
    Finally, the Copyright Office continues to play an important role 
in intergovernmental negotiations and international discussions of 
copyright law and policy, including the importance of antipiracy 
efforts and the proper framework for exceptions and limitations. We 
continue our long-standing tradition of participating in important WIPO 
meetings that addressed copyright issues (including the Standing 
Committee on Copyright and Related Rights), working with other 
Government leaders and copyright offices from around the world.
    The Office also continues its significant role in assisting Federal 
Government agencies with many multilateral, regional, and bilateral 
negotiations and served on many U.S. delegations, including 
negotiations regarding the Anti-Counterfeiting Trade Agreement, the 
proposed Trans Pacific Partnership, and the Joint Commission on 
Commerce and Trade with China in addition to negotiations and meetings 
relating to the implementation of intellectual property provisions of 
existing Free Trade Agreements and Trade Promotion Agreements. We 
participated on the interagency committee charged with preparing the 
annual special 301 report issued by the United States Trade 
Representative.
    Our day-to-day international work involved reviewing and commenting 
on the national copyright laws and proposed amendments from numerous 
countries, either as part of the World Trade Organization accession or 
trade policy review proceedings or based on requests by other U.S. or 
foreign entities. One goal of these reviews was to ensure that 
copyright laws around the world meet binding treaty obligations and 
provide effective copyright enforcement mechanisms. Over the past year, 
we reviewed the copyright laws or proposed revisions in at least 23 
countries, and participated in bilateral negotiations and consultations 
that covered these themes and more with at least 18 countries.
    The Office requested funds in fiscal 2011 to organize and host 
another international copyright training for developing countries, the 
intended focus of which is collective licensing and other innovative 
means of making copyrighted works available in the marketplace.
                               conclusion
    Mr. Chairman, I want to thank you for your consideration of our 
budget request today and for the subcommittee's past support of the 
U.S. Copyright Office. Thank you in particular for considering the 
funding we require to sustain a first-rate staff and meet necessary 
expenses, enabling us to perform our core duties under the law.

    Senator Nelson. Thank you.
    Ambassador O'Keefe.
STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you Senator.
    Mr. Chairman, thank you for the opportunity to testify on 
the OWLC's fiscal year 2012 budget request.
    As a unique congressional center and resource, the OWLC 
strengthens ties with a region of the world that contains not 
only the world's largest gas reserves, but also one of the 
largest stockpiles of nuclear weapons. Our program enlists 
civic-minded people in communities throughout the United States 
who show our delegates how democracy really works. We recognize 
their devotion and commitment.
    I would like to pause at this moment to honor Judge John M. 
Roll of Tucson, who had hosted 38 judges and other legal 
professionals from Russia and Ukraine for us since 2002, and 
Gabe Zimmerman of Representative Giffords' staff, who was so 
welcoming to so many of our participants. We mourn their 
passing.

                <greek-l>OWLC deg.EFFECTIVENESS OF OWLC

    Entering a new decade of programs, the OWLC continues to 
identify leaders of tomorrow from Eurasia, introduce them to 
U.S. democratic values, connect them to counterparts throughout 
America, and provide resources for partnerships. Four new 
members of the Senate met with OWLC delegates prior to entering 
the 112th Congress, including Senator Hoeven when he was 
Governor.
    As an example of the power of those meetings, a Kyrgyz 
parliamentarian, hosted by Montana State senators in 2007, said 
after last year's revolution, ``I can say that I am the father 
of the judiciary bloc in the new constitution. My experience 
from the Open World program helped in revising the 
constitution, using the basic principles and concepts that work 
in the U.S.''

      <greek-l>OWLC deg.INVESTMENT FOR THE CONGRESS AND ASSET FOR 
                              CONSTITUENTS

    Looking forward, the new strategic plan builds on the 
quality of programs and our influential alumni network to reach 
out to a greater number of young leaders. We now see the 
Russian Government starting to build unprecedented reverse 
programs, bringing university student body presidents of 
America to Russia, inspired by and modeled after the OWLC 
program.
    We keep costs low and quality high. Every grant contains 
cost-shared elements, and more than 75 percent of our 
appropriation is spent in the American economy every year. At 
the requested level of $12.6 million, we can fulfill the board-
mandated goals.

                           PREPARED STATEMENT

    The OWLC offers an extraordinary investment in the future 
of U.S. relations with the program countries. Thousands of 
American host volunteers are making the world safer, more 
prosperous, and more open by demonstrating our own democracy in 
action, and by developing community partnerships. Their 
devotion and energy, combined with the renown of the 
legislative branch, makes this program a nationwide asset for 
Members of Congress and their constituents.
    Thank you, Sir.
    [The statement follows:]
             Prepared Statement of Ambassador John O'Keefe
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, I am 
pleased to submit testimony on the Open World Leadership Center's 
(OWLC) budget request for fiscal year 2012. The OWLC, of which I am the 
Executive Director, is a unique resource that links the Congress and 
its constituents to the strategically important regions of Eurasia that 
contain not only the world's largest gas reserves, but also one of the 
largest stockpiles of nuclear weapons. In this capacity, the OWLC 
administers the OWLC program that allows community leaders throughout 
America to discuss issues ranging from nonproliferation to rule of law 
in face-to-face settings with emerging young, professional counterparts 
from Eurasia to develop projects and partnerships. In the past 11 
years, OWLC grants have enabled some 6,500 American families in almost 
2,000 communities around the country to host program participants.
    Since its inception, the OWLC has awarded grants for overseeing our 
U.S. exchanges to 61 organizations headquartered in 25 different States 
and the District of Columbia. These grantee organizations host 
delegations themselves or award subgrants to local host organizations. 
By 2011, well more than 700 local host organizations--including Rotary 
clubs and other service organizations, sister-city associations, 
international visitor councils, universities and community colleges, 
and other nonprofits in all 50 States and the District of Columbia--had 
conducted OWLC exchanges.
    More than 75 percent of OWLC's fiscal year 2010 appropriated funds 
were expended on U.S. goods and services through contracts and grants--
much of it at the local community level. American volunteers in 49 
States and the District of Columbia home hosted OWLC participants in 
calendar year 2010, contributing a large portion of the estimated $1.9 
million given to the program through cost shares.
    Nearly 17,000 emerging leaders from Russia, Ukraine, Azerbaijan, 
Georgia, Kazakhstan, Kyrgyzstan, Moldova, Tajikistan, Turkmenistan, 
Lithuania, and Uzbekistan have participated in OWLC. Earlier this 
month, our inaugural delegation of women-as-leaders from Armenia will 
travel to Des Moines, Iowa. While all the countries where OWLC is 
active are strategically important to the interests of the U.S. 
Government, they are also areas of growing economies where 
opportunities for foreign investment and trade increase yearly.
    With the requested funding level of $12.6 million, the OWLC will be 
able to continue its support of the Congress in inter-parliamentary and 
other legislative activities and bring 1,300 or more participants to 
communities throughout the United States in 2012. Actual allocations of 
participant slots to individual countries will be based on the board of 
trustees recommendations and consultations with the subcommittee and 
the U.S. Embassies in these countries. The requested funding will allow 
us to fulfill the board-mandated strategic plan to expand into 
Uzbekistan and Belarus, to meet our continuing plan to intensify 
legislator to legislator programs, and to reach the rising new 
generation in Russia and elsewhere who remember the Cold War as a 
fading memory, if at all.
    OWLC will facilitate existing projects and partnerships among 
hundreds of American civic organizations, numerous communities, and 
thousands of participating constituents and the regional 
parliamentarians and other leaders from OWLC countries hosted here. We 
ask for an increase of $600,000 to begin our Board of Trustees-approved 
expansion into Belarus, and to resume our Uzbek program suspended in 
2005.
    Major categories of requested funding for a total of $12.6 million 
are:
  --Program expenses ($0.5 million); and
  --Operating expenses ($0.9 million)
  --Contract ($7.2 million--awarded to U.S.-based entities) that 
        include:
    --Coordinating the delegate nomination and vetting process;
    --Obtaining visas and other travel documents;
    --Arranging and paying for air travel; and
    --Coordinating with grantees and placing delegates.
  --Grants ($4 million--awarded to U.S. host organizations) that 
        include:
    --Professional programming for delegates;
    --Meals outside of those provided by home hosts;
    --Community activities;
    --Professional interpretation; and
    --Administrative support.
                <greek-l>owlc deg.owlc and the congress
    As a U.S. legislative branch entity, the OWLC actively supports the 
foreign relations efforts of the Congress by linking our delegates to 
members and to experienced and enthusiastic constituents throughout the 
United States who are engaged in projects and programs in OWLC 
countries. The OWLC program routinely involves members in its hosting 
activities with more than 50 percent of delegates meeting with Members 
of Congress or their staff representatives last year.
    The OWLC also regularly consults with the Commission on Security 
and Cooperation in Europe; the Congressional Georgia Caucus; the 
Congressional Ukrainian Caucus; the Russia Caucus; the Congressional 
Azerbaijan Caucus; the Congressional Caucus on Central Asia; the 
Friends of Kazakhstan Caucus; other congressional entities; and 
individual Members with specific interests in OWLC countries or 
thematic areas.

    ``In December 2010, Senator Olympia Snowe of Maine gave a 
delegation of legislators from the Chechen Republic a joint resolution 
encouraging the peace process, a return to civil society and 
international cooperation, and signed by 200 representatives in the 
legislature of the State of Maine. The resolution reflects the State of 
Maine's support for stability and engagement in the region. The Senator 
had tried unsuccessfully to deliver the resolution via the Russian 
Embassy in Washington several times since 2008, so was pleased to be 
able to pass it on to the Chechen group.
    Last March, Representative Peter Roskam greeted education officials 
from the Republic of Georgia in the home of their host, George 
Palamattam, on their first day in Chicago. Representative Roskam 
surprised and delighted the delegates and host families present with 
the news that as a student he had visited Georgia. The discussion that 
followed covered a variety of topics that was very informational and 
educational for the Congressman, the host families, and everyone else 
who was present.
    Last month, Senator Bernie Sanders, Representative Robert Aderholt, 
Representative Dana Rohrabacher, Representative Robert J. Wittman, and 
Representative Dennis Kucinich met with two members of the Russian 
Federation lower house of parliament (Duma) on their first visit to the 
United States. They discussed topics related to education, labor, 
employment and parliamentary ties. The Russians also met with Maryland 
State Assembly members, State Department officials, foreign policy 
experts, and students and faculty of Georgetown University and the 
University of Maryland.''

    Members of Congress and their staffs also provide OWLC delegates 
with invaluable firsthand information on the U.S. legislative process, 
constituent relations, and other aspects of the U.S. Government in 
face-to-face meetings that forcefully demonstrate how accessible the 
offices of elected officials can and should be. It is a message not 
lost on OWLC participants, who come from a part of the world where such 
openness is still the exception rather than the rule and where 
constituent services are nonexistent or diminishing.
    OWLC's board-approved strategic plan for 2012-2015 emphasizes 
increasing the OWLC's legislative activities and focus. One of the key 
goals is to serve Members of Congress by becoming a recognized resource 
that connects them to emerging leaders of participating countries. 
Currently, we have scheduled five delegations of Parliamentarians from 
Kazakhstan, Kyrgyzstan (2), Moldova, and Russia and are planning three 
more from Azerbaijan, Georgia, and Ukraine. Furthermore, OWLC is able 
to link Members traveling to OWLC countries with alumni who can offer 
an unfiltered view of the issues of interest to United States. To this 
end, OWLC will seek to increase the number of legislator participants 
from program countries and meetings with U.S. legislators; broaden the 
legislative component of local host programs; and partner more 
effectively with U.S. organizations that will increase OWLC's 
effectiveness in serving members.
        <greek-l>owlc deg.recent program highlights and results
    In 2010, OWLC continued to focus on hosting in themes of interest 
to the Congress and of transnational impact, including human-
trafficking prevention, government and court transparency, 
nonproliferation, and environmental protection. OWLC also sponsors 
hosting that promote economic and civic partnerships between American 
communities or States and their counterparts abroad.
Kyrgyzstan
    Erkin Alymbekov participated in the OWLC program as a member of the 
first delegation of parliamentarians from Kyrgyzstan in June 2007, when 
he was Vice-Speaker of the Kyrgyz Parliament. He was hosted in Montana 
on a program focusing on accountable governance, and the following year 
he hosted Carol Williams, president of the Montana State Senate, when 
she visited Kyrgyzstan. Following a revolution in Kyrgyzstan and the 
ouster of President Bakiev in April 2010, he was tasked by interim 
President Roza Otunbayeva to be one of the co-authors of the draft of 
the new constitution. Mr. Alymbekov later stated that his OWLC 
experience and a copy of the Montana constitution helped him in 
revising his country's own using the basic principles and concepts that 
work in the United States. Passed by a referendum held in June 2010, 
the new constitution shifted many powers from the executive branch to 
that of the legislature, enabling Kyrgyzstan to become the first 
parliamentary democracy in Central Asia.
Georgia
    Attorney John Hall, of Atlanta, Georgia, first hosted OWLC 
delegates from the Republic of Georgia in 2007. After hosting several 
such delegations, he developed an interest in the region as well as a 
network that led to his becoming the Honorary Consul General of the 
Republic of Georgia in 2009 and the opening of his firm's business in 
Tbilisi last year. In regard to OWLC's role in this, he stated:

    ``As a direct result of this program and the continued 
relationships (we have hosted eight additional OWLC delegations since 
February 2007, we have become leaders of the Atlanta Tbilisi Sister 
City Program, [have] partnered with U.S. Department of Commerce to put 
on two economic forums, helped coordinate the visit of five Members of 
Congress to Tbilisi, [and] arranged an American development company to 
start a project in Georgia. This and many other activities are a direct 
result of Open World's Congressional exchange program. I urge the 
Congress to keep this valuable program together and would welcome the 
opportunity to show Members the many different facets of, and 
opportunities in, the Republic of Georgia.''

Moldova
    Before March 2010, Moldovan mayors and local legislators belonged 
to different regional associations in Moldova. After their visit on the 
OWLC program, and with the support of an organization active in local 
reforms, these alumni decided to form the Congress of Local Authorities 
of Moldova (CALM), uniting all four regional associations. The Congress 
plans to create a strategy for decentralization, provide counsel to 
local governments, lobby on behalf of local governments, support local 
social and economic development, and increase the effectiveness of 
public procurement. Nine OWLC alumni are on the association's governing 
board, including the association's president, Tatiana Badan. There are 
currently 300 members in the Congress of Local Authorities of Moldova 
and 63 of them are on the governing board representing 29 regions.
    U.S. Ambassador to Moldova Asif Chaudhry highlighted this result in 
a letter to OWLC Executive Director John O'Keefe, stating that ``Open 
World directly supports key U.S. policy priorities in Moldova and the 
region'' and that he applauds ``Open World's focus on building 
partnerships between Moldovan and American people and institutions.'' 
(letter of February 17, 2011).
Russia
    OWLC alumnus and former ship navigator Eduard Perepelkin became a 
crusader for Russia's ``street'' children. Perepelkin's 2008 OWLC 
visit, which included an inspiring session at the National Center for 
Missing and Exploited Children, made him even more determined. On his 
return home, he did what is still, in post-Soviet Russia, the 
unthinkable--he strode uninvited into the mayor's office and persuaded 
him to increase funding for youth services. In July 2010, Perepelkin 
was back in Washington, the site of his 2008 OWLC visit, for a meeting 
of the U.S.-Russia Bilateral Presidential Commission's Working Group on 
Civil Society. And now that Perepelkin's efforts have caught the 
attention of national officials, this former ship navigator hopes to 
help his country steer many more children away from the streets.
    One of the hallmarks of the OWLC program is the multiplier effect 
and impact on both the hosting community in America and that of the 
participants. From the get-go and throughout the program participants 
understand that, in many ways, the program only really begins once they 
return to their countries of origin to bring about partnerships and 
joint projects. One such example is a $150,000 grant from the Bristol-
Myers Squibb Foundation to an OWLC partner that will allow nurses in La 
Crosse, Wisconsin, and Balakovo, Russia, to work together on cancer 
prevention and treatment. OWLC alumni will participate in education 
programs with nursing faculty from Gundersen Lutheran Health System and 
will apply their new knowledge and skills at the Balakovo Secondary 
Medical School for nurses. At the end of the 2-year project, it is 
anticipated that OWLC alumni will have trained approximately 500 nurses 
in state-of-the-art cancer care.
Ukraine
    Olena Sichkar, Deputy Head of State Social Services for Family, 
Children and Youth, met with John Picarelli, Social Science Analyst, 
Member of the U.S. Government Special Policy Operating Group on 
Trafficking and Carson Osberg, Case Manager, Counter-Trafficking Unit 
of the International Organization for Migration (IOM). On March 18, 
2010, Mrs. Sichkar's agency and the IOM signed an indefinite-term 
partnership agreement. This partnership is focused on joint project 
work and organizing seminars, conferences, and study programs to 
prevent international human trafficking and to inform the Ukrainian 
population about this serious social issue.
      <greek-l>owlc deg.owlc's 2011 activities and plans for 2012
    For 2011, OWLC continues to host in thematic areas that advance 
U.S. national interests in general, and congressional interests in 
particular, and that generate concrete results while strengthening the 
ties between American communities and their partners abroad.
    In 2011, the OWLC will host additional members of the legislative 
branches of current OWLC countries--especially legislators from Central 
Asia and the caucasus, based on congressional interest. In February 
2011, the OWLC hosted seven groups of Russian legislators and an 
additional delegation of State Duma (House) members. The following 
month, we brought five groups of Ukrainian regional legislators. And in 
the fall, we are bringing a dynamic group of Ukrainian women leaders 
through contacts developed by Representative Marcy Kaptur. By the end 
of 2011, we will have brought more than 100 regional and Federal 
legislators from Georgia, Kazakhstan, Kyrgyzstan, Moldova, Russia, and 
Ukraine.
    OWLC is becoming an increasingly recognized resource for American 
citizens engaged in citizen diplomacy. Earlier this month, former 
Congressman James Symington worked with OWLC alumni to organize an art 
exhibit in Moscow focused on Abraham Lincoln and the Czar Liberator, 
Alexander II. Congressman James Moran hosted an art exhibit in the 
Rayburn House Office Building featuring artworks by Russian orphans in 
collaboration with civil society leaders based in his Congressional 
District who approached OWLC for guidance. Up to 60 United States 
university student body presidents will have visited Russia by December 
2011 in a Russian Government sponsored exchange program that is both 
informed and inspired by the OWLC model. Senate Majority Leader Harry 
Reid, Senator Roger Wicker, Senator Bill Nelson, and Senator Bernie 
Sanders were some of the Members of Congress who nominated student body 
presidents for this exchange.
    OWLC, through private funding, will continue to develop its more 
than 16,500-person alumni network by holding forums and workshops and 
making use of contemporary technology provided by such services as 
Skype and social networking sites in the official languages of OWLC 
countries. This alumni network plays a major role in maintaining 
program momentum and vibrancy by helping to identify new emerging 
leaders who might participate in OWLC. Alumni are also central to 
furthering projects and partnerships that demand regular and effective 
communication. One very important group that exemplifies this trait is 
the 100-strong participants of the OWLC nonproliferation program from 
the last 2 years who will be convening in May. The communications 
technology that OWLC has set up enables these relationships to thrive 
in a cost-effective manner during these times of budgetary constraints.
                               conclusion
    OWLC offers an extraordinary ``bang for the buck'' in terms of 
efficiency, cost-effectiveness, value, and an investment in the future 
U.S. relations with the countries where the program operates. OWLC 
boasts an overhead rate of about 7 percent, every grant contains cost-
shared elements, and more than 75 percent of our appropriation is 
plowed back into the American economy every year.
    In the future, there will be in-depth program changes that will 
increase congressional involvement in OWLC and will increase support to 
the constituent hosts who have established programs and partnerships in 
OWLC countries. With funding at the requested level of $12.6 million, 
Americans in hundreds of Congressional Districts throughout the United 
States will engage up-and-coming Eurasian political and civic leaders--
such as parliamentarians, environmentalists, and anti-human trafficking 
activists--in projects and ongoing partnerships. Americans will, once 
again, open their doors and give generously to help sustain this 
successful congressional program that focuses on a region of profound 
interest to U.S. foreign policy. To that end, the subcommittee's 
interest and support have been essential ingredients in OWLC's success.

   <greek-l>LOC deg.IMPACT OF FISCAL YEAR 2011 CONTINUING RESOLUTION

    Senator Nelson. Thank you.
    The first question that I'd like to ask is regarding the 
impact of funding the ongoing resolution at the fiscal year 
2010 enacted level.
    I think that it's important to point out that every agency 
of Government is going to be faced with the problem of how to 
continue to operate during the next 6 months. If we're able to 
get a continuing resolution for even that period of time in the 
next few days, what will the impact be for cuts along the way?
    In your testimony, Dr. Billington, you alluded to the 
implications. But could you give us a little bit more on the 
specific impact of how mid-term cuts affect the operations of 
LOC?
    Of course, it's dependent of how much the cut is, but what 
would the implication be?
    Dr. Billington. For the remainder of this current year?
    Senator Nelson. Yes, for the current year, and then we'll 
talk about next year, fiscal year 2012.
    Dr. Billington. Well, I'm not sure what the exact number 
would be. We calculated what it would be if it were sustained 
through the following year as well. But, the impact would be 
substantial because, as I pointed out, we are doing much more 
with much less.
    There are really only two areas where we could, or we can 
make significant cuts, in an institution where 70 percent of 
all of our major areas of appropriation are in personnel. All 
of the program areas--I could go over them with you--are unique 
and it would not be likely, and probably almost impossible, for 
anybody else to replicate these programs if we were to stop 
doing them. So, we might have to make some cuts in programs.
    I don't know if it would be in the remaining months of this 
fiscal year, but it wouldn't be very far after that that we'd 
have to consider scaling services back. You can't really cut 
these programs very heavily, without experiencing some damage 
since we've been basically operating with almost no increase 
for the last 4 years, only a 2 percent programmatic increase. 
So, we would have to start examining which of these programs we 
would do away with or significantly reduce. I have examined 
three of the larger appropriations and am aware of how 
difficult this would be.
    Maybe Mr. Dizard, who's been occupied with this in a little 
more detail would like to comment.
    Mr. Dizard. Sure, I can do that. I'd be happy to.
    Mr. Chairman, for this fiscal year, if you get into a 3 
percent range, then we're talking probably hiring freezes, as 
well as reducing our contracts for equipment, custodial 
service, some of our IT planned investments, and security 
equipment. And we would probably be looking at 3 or 4 days of 
furloughs across LOC. And as you get beyond that, if you wanted 
to go into 5 percent cuts, as Dr. Billington mentioned, in 6 
months, with very limited ability to deal with personnel, our 
recourse would be just to increase the amount of furloughs as 
we reach towards October 1--if we're just talking this fiscal 
year.

       <greek-l>LOC deg.PERMANENT DAMAGE OF REDUCING ACQUISITIONS

    Senator Nelson. Dr. Billington, you mentioned that if you 
have subscriptions and you stop them for 1 year, it's not as 
though you lost 12 volumes, or, 12 issues, but it's an even 
bigger impact than that.
    Dr. Billington. Yes. The fundamental core things that LOC 
has to do are to acquire, preserve, and make accessible the 
world's knowledge and America's creativity.
    The price of all of these things tend to go up and up. We 
keep reviewing our policies in all of these areas. But if 
you're going to have the kind of universal collection that we 
have historically acquired, beginning with Jefferson's old 
library, which was in 16 languages--and now we've collected in 
470 languages; if you're going to continue that, you simply 
can't miss a year, because then you have to acquire double the 
amount the following year. And besides, what you miss will 
probably not be attainable, except in the year in which it is 
published.
    We purchase about 1 million items a year, and more than 
twice that amount comes to LOC through gift exchange, copyright 
deposit, cataloging in publication, and other sources. We 
receive about 22,000 items a day, of which we only keep 10,000. 
But, if you stop a year's subscription of a crucial scientific 
or important magazine--and, you know, it's hard to know what's 
going to be the most important--if you stop it, you aren't 
diminishing the value of it by just one hundredth. You're 
diminishing it about in half--particularly in areas that serve 
the fast-moving needs of the Congress and of the Government. 
And so, you can't ever make up a lost period. You have to 
either sustain the acquisition process, or change the nature of 
your mission.
    And preserving that mission is also affected in large part 
by the personnel ceiling. Collecting requires this degree of 
universality. The collections are an enormous asset. We call it 
the strategic information reserve of the United States. And the 
differential between what LOC collects and makes accessible, 
and what other research libraries in America do, is increasing, 
because the strain on public libraries and university-based 
libraries is very great, even on other national libraries.
    So, the uniqueness of LOC's collections and making them 
more accessible, more useful to the Congress and our country 
are of paramount importance in an age when balance of trade and 
the economic productivity depends more and more on knowledge of 
what's going on all over the world.
    You can't let the collections go for a year without 
producing an irreversible slippage and decline into becoming 
more a museum of the book than a dynamic of a creative culture 
that has invented most of our current information technology 
and has the most envied higher research capabilities in the 
world. Physical preservation is another thing. We're a throw-
away society. We don't realize that almost every medium on 
which knowledge and creativity is recorded, is highly 
perishable.

            <greek-l>LOC deg.BROAD SCOPE OF THE LOC MISSION

    So, all of that is the essential mission that we have to 
perform, not for LOC, but for the United States of America. And 
if it can't be sustained, that represents a fundamental mission 
failure, and puts a greater limitation on the way America will 
be able to answer--and the Congress in particular--with firm, 
objective, factually based knowledge and information and 
analysis of what is going on in the world, and even within our 
own country.
    So, I think it's expensive, but it is something that is 
unique in human history. It's a great American accomplishment.
    I think, Mr. Chairman, I'm the only person who, when he 
signs for an acquisition for LOC, I don't sign for LOC. I sign 
for the United States of America. And the idea that legislation 
has to be based on knowledge that goes right back to the nature 
of the Founding Fathers, and putting this whole experiment in 
democracy and the creative society together.

               <greek-l>LOC deg.IMPACT OF PERSONNEL CUTS

    So, it's really kind of a noble mission. And then we get 
into the question of cuts, major cuts, and then you're talking 
personnel. And when we're talking personnel, you're dealing 
with a wide variety of talents--a diversity of backgrounds, 
talents. Very much of what LOC staff does is one-of-a-kind work 
that really isn't being done anywhere else to the same degree.
    So, it's a very difficult thing to avoid. But once you cut 
back into the bone of the mission programs--that's what we're 
talking about, that's where all the appropriated money, 
practically all of it goes--then you're cutting back, on our 
fundamental mission.
    One of my instructions consistently has been--and I have 
great consensus among all our top managers on this--that LOC 
shouldn't do anything that anybody else is doing as well or 
better. But we have to do things that represent the public good 
and address the objective needs of the United States. So, if we 
stop doing something or severely curtail it to make 
significant, major reductions, we will jeopardize, really, our 
fundamental mission. We're now integrating more of the digital 
collections so that we're able to knowledge-navigate and 
provide access to an expanded range of knowledge in the digital 
world, as well as the analog.
    If you get into the area of cutting personnel, we have very 
little flexibility to deal with this. For instance, our average 
term of service for personnel is 16 years. The average age of 
personnel is 49. So, we have a lot of expert knowledge banked 
at LOC. We're starting a mentoring program so that they can 
pass their one-of-a-kind knowledge on to successors.
    A lot of the people who are keeping us at the forefront of 
the digital revolution are young and recent hires. So, the 
point is, if you start cutting into the personnel, which is the 
bulk of our budget, you are going to lose people prematurely, 
on whom we're in many cases the most dependent.

          <greek-l>LOC deg.LIMITED FLEXIBILITY TO ABSORB CUTS

    I think if you put it to our staff, they understand the 
budgetary pressures. But I cannot suggest to the staff that we 
all take a salary cut, for instance, everybody take a little 
percentage to absorb it equitably, because there are legal 
requirements that prevent me from doing that. So, there's very 
little managerial flexibility.
    We would probably be talking, in terms of cuts, about 
furloughs. But even that gets to be a serious and difficult 
thing to manage. So, we don't really have the kind of 
flexibility to absorb substantial reductions and sustain the 
mission in a dynamic, changing world.
    I don't think our mission calls for infinite, continued 
expansion. We've only been asking for a little, about a 2 
percent annual increase over the last 4 years for anything 
other than inflation, in anticipation that there was going to 
be a need for constrained budgets. We have a whole new 
management agenda which is calling for greater synergies, much 
more coming together, regulating IT investment--there's a 
special committee for that, and there's another special 
committee that Mr. Dizard is chairing, to bring the digital 
people together with the analog people, with the traditional 
books and materials.
    This is a pioneering institution that has already 
demonstrated that we can do more with less, that is getting 
very deep into the muscle, and we risk getting down to the 
bone.
    Senator Nelson. Well, clearly, cutting mid-term has 
ramifications that could be draconian.

        <greek-l>LOC deg.MINIMAL INCREASE IN FISCAL 2012 REQUEST

    Now, in looking at fiscal year 2012, which provides for 
minimal growth. Is there a way that some of LOC's priorities 
that are already being deferred, as a result of the need to 
tighten our belts, can continue to be deferred in an effort to 
help us reduce the budgetary request for that fiscal year?
    Dr. Billington. Well, maybe.
    Senator Nelson. I'm sorry, if I am not being clear in what 
I'm trying to find?
    Dr. Billington. Yes.
    Senator Nelson. You must have deferred something to hold 
the budget down to the level that you have.
    Dr. Billington. Right.
    Senator Nelson. Is it possible that there are some other 
things that could be held back, pushed into the future, to 
address a lower request for 2012?
    Mr. Dizard. We went through the process for fiscal year 
2012, and as you recognized, there were many things that were 
deferred that we did not ask for. We did feel we needed to 
highlight the need for additional expertise in CRS and our IT 
security needs.
    I think, as Dr. Billington mentioned, and I mentioned 
before, our options really are going to be to limit hiring, 
next year. That has to be our first option.
    If we start to get into decreasing our acquisitions, 
tightening our collections policies or restricting them, then 
we are changing the fundamental nature of the institution.
    The other area where, that's nonpersonnel, that's of 
significance, is preservation. And, if you delay there, you're 
having an impact way into the future as well.
    So, I think we generally would restrict some of our 
contracting. But the immediate recourse would probably have to 
be shrinking staff, and not hiring, and reducing staff through 
attrition, or even considering early outs or buy-outs, or the 
like. I think that's where we would have to go initially.

          <greek-l>LOC deg.OPPORTUNITIES TO DEFER REQUIREMENTS

    Dr. Billington. We have, in fact, Mr. Chairman, for 
instance, deferred one very significant need. We're 9 years 
behind in the schedule for storage modules at Fort Meade for 
this immense collection that we're custodians of. Items stored 
at Fort Meade have a 100 percent retrieval rate. Retrieval from 
the shelves is robotic, it's extremely efficient. But what we 
agreed to do is to string it out so that the cost would go over 
2 years, rather than the first one. And we can do some things 
like that, but there are not that many, because we're operating 
on four consecutive very stringent budgets, where we've 
consistently been exercising this kind of restraint.
    So, yes, we'll have to take a hard look at all options to 
cut back in ways that don't affect programs. Both CRS and the 
Copyright Office have defined missions and clientele that they 
must serve. And they, like other parts of LOC, have suffered 
considerable personnel losses over recent years.

                      <greek-l>LOC deg.CRS REQUEST

    The one programmatic increase that we've requested for CRS 
is not really an increase. It is to bring them up to where they 
once were and it's to enable them to address a whole new set of 
technical, scientific, and financial questions, accounting, all 
manner of scientific and technical problems that are arising in 
the world, to get CRS able to do what you need.
    It is not really an increase in the sense that it is meant 
to get to where CRS was. It's just to meet that distinct 
requirement of our client, the Congress.

        <greek-l>LOC deg.INFRASTRUCTURE FOR THE INFORMATION AGE

    Anyhow, we certainly want to be as cooperative as we can. 
But the mission is providing essential infrastructure in the 
information age to the company that generates the knowledge and 
information but is not able to preserve it or make it as 
accessible as it should be to as many people as it should be. 
It's such an important mission for the United States, when you 
consider the different audiences that depend on the services 
that we provide--including the networks.
    As you can see, the partnerships that we're establishing--
and we hope to establish more--depend on our leadership, 
because ours is the responsibility to determine what's 
important for the Nation, and then to work with others. And so, 
much of what we do is shared, it is assembling and enabling 
others to add to what we do, rather than try to start up and do 
it all themselves.
    Senator Nelson. Well, if we turn to CRS, your request for 
an additional 17 FTEs, does it take 17 people to replace Dan? 
Is it possible that some of that hiring could extend over a 
longer period of time, or are you experiencing the same thing 
that the Congressional Budget Office (CBO) and Government 
Accountability Office (GAO) are experiencing, and that is more 
requests from the Congress for more reports? And that puts the 
pressure on. We're our own worst enemy in that regard. We want 
more information, but we want to pay less for it. So, I do 
understand the squeeze that it creates. But is it possible to 
extend that hiring over a longer period of time, or with 
attrition?
    What I'm looking for is some way, not with the current 
resolution, but with fiscal year 2012, to reduce some of the 
expenses that are projected and put them into next year's 
budget. As you said, you've been through 4 very tight years 
budget-wise, and so it's not as easy as it may seem, but we are 
going to be under an awful lot of pressure to hold the line in 
the legislative branch, and so I'm looking for help.
    Dr. Billington. Well, I would stress that this was very 
carefully reviewed by the entire executive committee. But I 
think we ought to let----
    Senator Nelson. Sure.
    Dr. Billington [continuing].--Mr. Mulhollan speak to this. 
But let me just stress that this was the only, real 
programmatic increase.
    Senator Nelson. I know.
    Dr. Billington. The cybersecurity request was virtually a 
mandate, to cover the communications and so forth. But this is 
something that was very carefully weighed by the executive 
committee. It's his baby, so let him speak.
    Mr. Mulhollan. Yes. My baby.

               <greek-l>LOC deg.SPECIFICS OF CRS REQUEST

    Actually, this is a stretched out request. Because we asked 
for 34 FTE over 2 years. The subcommittee said it was not able 
to fund additional FTE in fiscal year 2011 due to budgetary 
constraints. We asked for 17 last fiscal year, and 17 for this 
fiscal year. The reason is, back in 2008 we were at 705 FTEs. 
We're now at 675 and we're going down.
    Both our sister agencies, the CBO and GAO, they're facing 
the same problem, because you're facing the same problem. It's 
probably trite to say, but after 40 years of looking at it, I 
honestly believe the problems are inherently more complex. You 
can't raise an issue without international, constitutional, 
environmental, as well as economic impacts, so in this global 
economy you're looking at the end of a period where issues 
heretofore could have been more confined. Dodd-Frank is an 
incredible example of how trying to get our financial house in 
order has impacts in Europe, Canada, and elsewhere, as well as 
Asia. That's why, for instance, in the financial accounting and 
auditing capacity, we found ourselves wanting.
    We do our best to present to you a faculty of expertise. 
For instance, on carbon capture and sequestration, we have a 
geological engineering capacity to take a look at that, 
independent of any advocacy, so you can trust the assessment. 
And our statute calls for anticipating the consequences of 
alternative provisions. So, it is our best judgment in asking 
for these positions--these are competencies we're not going to 
just need now, but for the next decade. And this was a lot of 
work.
    Certainly, if we extend it for 2 years we can extend it for 
4 years. My only cry of the heart, is that these problems don't 
wait. In the last months we've had to call upon, again, 
geologists for earthquake issues--what are the earthquake 
predictions in the United States? We've had to look at the 
question of nuclear safety. We just have a report out on 
nuclear safety and the vulnerabilities across the United States 
on earthquakes.
    We have looked at the history of no-fly zones in Bosnia and 
Iraq--what are the consequences internationally? What are the 
costs? We have an excellent piece out on the Odyssey Dawn. We 
are the only institution I think that has the institutional 
memory of war power resolution and Presidential compliance.
    That capacity that you have invested in at CRS, to be 
perfectly frank, is even more important when you're reducing 
Senate staff and appropriation staff, because since 1970 CRS 
has been a shared pool of expertise. That was the notion. You 
can be more cost effective having an expert available to one 
side of the aisle and the other side of the aisle, and to both 
Chambers. And I think that's proven to be the case. But we 
could draw that out further, yes, Sir.
    Senator Nelson. Thank you.

       <greek-l>LOC deg.BROAD PERSPECTIVE OF MULTIPLE DISCIPLINES

    Dr. Billington. I'd like to add one other thing that I 
think that they've done that's quite extraordinary. Speaking 
from a background as a one-time university professor and 
veteran of a number of faculty discussions, it's very difficult 
in highly compartmentalized, discipline-oriented universities 
to get the perspectives of different disciplines focused on a 
problem. And I think the organization of CRS, which gets teams 
working in response to the problem, and getting different 
perspectives is the only way to go, because we're learning more 
and more, as you see, now events, for instance, in the Middle 
East, where the events have all kinds of aspects that are very 
different from just economics, or just politics, or just 
military. There are tumultuous changes and things going on. And 
you're better able to deal with them if you have people in 
different disciplines working together to answer whatever the 
question is that is on the Congress' mind.
    So, I think that getting these specialized personnel is not 
just so that you get a little more exotic detail. It's a 
question of getting different--something which does not happen 
enough in our society--getting different disciplines and 
different approaches to talk to each other, to answer a 
question that is right on your mind in the Congress.
    Senator Nelson. Thank you.

    <greek-l>OWLC deg.OPEN WORLD STRATEGIC PLAN OBJECTIVES AND COSTS

    Ambassador O'Keefe, I noticed in seeking a $600,000 
increase for fiscal year 2012, it would be to initiate an 
expansion into Armenia, Belarus, and Uzbekistan. Can you give 
us some idea of what, how that $600,000 would be used 
specifically? Will there be any kind of actual exchanges with 
these countries in fiscal year 2012, or will this be simply the 
start-up cost to set up an exchange at some point in the 
future?
    Ambassador O'Keefe. Sir, this is all going into exchanges. 
We already have the backbone and infrastructure, and I've 
discussed this with the charge d'affaires in Uzbekistan, which 
I think is the most important of the three countries, and also 
with Ambassador Yovanovitch in Armenia.
    So, if we were to begin the programs, the costs would be 
about what we have per participant. There are no real start-up 
costs.
    Also, for a place like Armenia and Belarus, we might be 
able to actually have a lower cost, since we would have Embassy 
personnel do more of the work as their cost share. We're 
starting with that model. It gives us more bang for the buck.

  <greek-l>OWLC deg.RAMIFICATIONS OF FUNDING AT FISCAL YEAR 2010 LEVEL

    Senator Nelson. As we all are aware of the fiscal 
constrains, if additional funding isn't provided and if you're 
funded at the fiscal year 2010 enacted level, what would it 
take within your budget to absorb that kind of a budget cut?
    Ambassador O'Keefe. Yes, Sir. We've looked at that, and, 
just as a first principle, we want to preserve the momentum of 
the numbers of people coming. It makes a big difference for 
alumni networks, for qualify of nominations and, frankly, 
quality of programming.
    Also, by preserving those numbers we don't reduce the 
grants to the communities, and these are community colleges, 
service clubs, rotaries, and lots of different community 
organizations. We did 700 communities last year.
    So, our going, in principle, is not to diminish that, and 
if we do so then, as a last resort. So, it means that you give 
up somewhat on quality in terms of oversight. We do like to be 
able to monitor a certain number of programs per year--
especially programs where we get the reports that they're not 
as good as the other ones. And you do that by actually 
observing how it's done. We give up a little bit of quality on 
that.
    The other approach, and the one that we would take, is we'd 
have to look at our staffing, and we'd have to look at travel 
and other things. At the end of the day, if we can't absorb 
rising costs of transportation, hotels and other things, we 
would reduce numbers. That's a last resort.

              <greek-l>OWLC deg.IN-KIND GIVING AND SUPPORT

    Senator Nelson. You've done an outstanding job in 
leveraging nonappropriated funds over the last several years. I 
think it's $1.7 million in donated goods and services from 
hosts and grantees in 2009, and as your testimony indicates 
that this level is estimated to be even higher in 2010, at $1.9 
million.
    Has the sluggish economy hampered your efforts to leverage 
more nonappropriated funds, or are you able to continue to do 
just about what you would expect to do?
    Ambassador O'Keefe. It's odd. I think we must be counter-
cyclical, because we still have this great demand from 
communities to host about twice what we can sustain. And they 
continue to be generous, even in these difficult circumstances. 
So, I am so impressed by the dedication of the communities that 
are welcoming all of the delegates, and their willingness to 
continue to do the home hosting, to pick up the meals, and 
other things.
    Senator Nelson. Do you see the opportunity, then to be able 
to continue to grow at the same level that you've enjoyed in 
the last couple of years?
    Ambassador O'Keefe. I think that there's, frankly, an 
absorptive capacity. And so, I think that number may remain the 
same.
    What we are looking at now is partnering with other 
organizations that would put up the money for airfare, putting 
up the money for, perhaps, part of the programming in the 
United States. Organizations that already bring people to the 
United States. And then, for about one-third of the cost that 
we ordinarily would have, take their delegates and give them a 
4- or 5-day OWLC experience.
    Senator Nelson. If we increased those efforts, would it 
help you make up that $600,000 difference?
    Ambassador O'Keefe. I hope so. But I can't guarantee 
anything, Senator.
    Senator Nelson. I appreciate that.
    Well, I've asked a number of questions. Is there any 
question that I haven't asked that I should have?
    Well, if not, I appreciate very much your candor. 
Obviously, we're in this together. We want to find a way to 
make it work for, as Dr. Billington says, the United States of 
America. It's about more than just us. It's about our country.
    And we understand the importance of LOC as a part of this 
overall institution we call our country.
    Thank you so very, very much for being here. We hear what 
you're saying. We clearly empathize with it. We understand what 
the consequences are if cuts are not made in an appropriate and 
responsive way.
    One thing that I've found not just in this position, but 
also as Governor is that the more I knew about a program, the 
harder it was to cut.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Nelson. So, you have given me a lot of information 
to make it even harder to think about cutting.
    Thank you very much.
    Dr. Billington. Thank you, Mr. Chairman, very, very much. 
We're willing to work with you on these difficult problems. 
Thank you so much.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
             Questions Submitted to Dr. James H. Billington
               Questions Submitted by Senator John Hoeven
               <greek-l>loc deg.impact of reduced funding
    Question. The Library of Congress's (LOC) fiscal year 2012 
appropriations request is $666.7 million, an increase of $23.4 million, 
or 3.6 percent, more than the fiscal year 2010 enacted level. 
Unfortunately for all of us, the Congress is still negotiating the end 
game for the fiscal year 2011 budget, and as you are well aware we are 
contemplating how much to reduce your funding from the current level, 
not how much to increase it. Please provide the subcommittee with the 
impact of a 5 percent and a 10 percent reduction to LOC's total 2010 
appropriation.
    Answer. A 5 percent reduction to the fiscal 2010 base appropriation 
level--a fiscal 2011 funding level of $650.1 million--would require 
that LOC freeze hiring, freeze travel and training, substantially 
reduce all contracts, grants, and general purchases, and implement a 
staff furlough of 11 days. Fiscal year 2011 funding level at 10 percent 
below the fiscal 2010 budget--or $613.5 million--would require all of 
those cuts plus an additional 11-day staff furlough (total furlough of 
22 days).
                  <greek-l>loc deg.fort meade module 5
    Dr. Billington, you mentioned that one of the top-priority projects 
for LOC in fiscal year 2012 is $8.88 million for Collection Storage 
Module 5 (phase I of II) at Fort Meade, to expand the storage capacity 
for LOC's collections. I note that LOC's request of $666.7 million, 
which is an increase of $23.4 million, or 3.6 percent, more than the 
fiscal year 2010 enacted level and the fiscal year 2011 current funding 
level, does not include the $67.9 million requested in the Architect of 
the Capitol's (AOC) budget for the ``Library Buildings and Grounds'' 
account. The subcommittee is not in a position this year to be able to 
fully fund all of these increases, and we must balance LOC's requests 
with AOC's requests and each of the other agencies funded in the 
legislative branch bill.
    Question. In order to fund the $8.88 million for Collection Storage 
Module 5 at Fort Meade, would LOC be willing to forgo other increases 
in its fiscal year 2012 budget request (not AOC's requests) to offset 
the cost of the storage module?
    Answer. LOC focused its priorities and limited the fiscal 2012 
budget request to the most critical and timely needs. Aside from 
mandatory pay and price-level adjustments, LOC's 3.6 percent increase 
represented funding requests for a mandatory information technology 
(IT) security initiative and for expanded research expertise that would 
enable the Congressional Research Service to better respond to the 
research and analysis needs of the Congress.
    The $8.88 million request to fund the Collection Storage Module 5 
at Fort Meade was included in AOC's budget. LOC partnered with AOC to 
both prioritize the projects and initiatives that were included in 
AOC's budget and to formulate a phased approach to funding the 
Collection Storage Module 5 project so as make this major capital 
investment as economically viable as possible for the legislative 
branch budget.
    Given the careful deliberations LOC went through to formulate the 
fiscal year 2012 budget request, LOC is not in a position to forego 
other requested increases to fund the $8.88 million for Collection 
Storage Module 5. However, LOC is committed to working with the 
subcommittee to determine the most-efficient approach to fund critical 
needs, just as we worked diligently with your subcommittee staff to 
assess priorities and evaluate trade-offs in this year's (fiscal year 
2011) budget process.
    Question. What exactly will the $8.88 million provide with regard 
to Collection Storage Module 5? Will all of this funding be obligated 
in fiscal year 2012?
    Answer. The benefit of the two-phased construction approach is to 
distribute the total cost of construction over 2 fiscal years, and to 
allow for the construction of a complete and usable facility, following 
each phase. This approach also allows for the funding to be provided in 
consecutive fiscal years, which would provide for the completion of the 
final project phase, without delay or interruption.
    Under the two-phased construction approach, the $8.88 million 
investment of phase I would complete all site infrastructure, building 
structure, overhead fire suppression sprinklers, lighting, and the 
basic building systems of heating and ventilation. This would allow for 
temporary storage of boxed or palletized library materials and 
unprocessed collections up to a height of 12 feet. The estimate for 
phase I does not include the cost of high-bay shelving, pallet racking, 
or climate control for the preservation-quality environment needed for 
permanent collections storage. It is estimated the construction period 
would be 2 years.
    Question. For phase I of II, $8,89 million is requested--do you 
know yet how much funding will be required to complete phase II?
    Answer. Approximately 90 percent of the funding requested for phase 
I would be obligated in fiscal year 2012. The remainder would be 
utilized in fiscal year 2013 to accommodate construction contingency, 
construction administration, and related testing and commissioning 
activity.
    AOC cost estimate for phase II is $9.58 million. This investment 
includes customized high-bay collection storage shelving up to 32 feet 
with integrated fire suppression systems, and a specialized climate 
control system for permanent collections' preservation. AOC estimates 
the total project cost of Collection Storage Module 5 (phase I and II) 
in the amount of $18.46 million.
                  <greek-l>loc deg.it security funding
    Question. LOC is requesting $2.75 million and five additional full-
time equivalents within the Office of Strategic Initiatives to expand 
LOC's information security incident handling and response function.
    If the subcommittee is able to provide the requested increase of 
$2.75 million, how is that funding to be allocated?
    Answer. The requested $2.75 million will enhance our security 
incident handling and response function. This enhancement, resulting 
form discussions with the House and Senate regarding assuring 
confidentiality of LOC research provided to Members, will provide 
protections similar to the House and Senate.
    The funding will pay for security staff, contractor support, and 
security tools.
           <greek-l>loc deg.impact of not funding it security
    Question. If the subcommittee is unable to provide this increase, 
what is the impact to LOC?
    Answer. Lack of funding for this security enhancement effort will 
likely result in delays in the detection of threats, and delays in the 
response to security incidents, including the investigation and 
remediation of cybersecurity events at LOC. This could cause 
information to be compromised and pose a risk to LOC and agencies with 
which LOC interacts.
                  <greek-l>loc deg.content management
    Question. Security of electronic information is an important part 
of every Federal Government agency's daily operations--to try to 
prevent, or mitigate the effects of, the accidental or purposeful 
deletion or corruption of information stored electronically.
    How would LOC know if any of its electronic information had been 
deleted or corrupted?
    Answer. Long-term storage solutions have policy settings that 
include when to delete information from the systems based on events, 
age, etc. At LOC the long-term storage solution preservation policies 
are set to never delete. Currently, data integrity is checked when the 
file is ingested and when the file is migrated to newer solutions. (LOC 
migrates archive data, e.g., our digital collections, every 3-5 years 
as part of ensuring the data is not stored on obsolete technology. 
During this process, the data integrity is checked.)
    LOC is also working on a plan to re-architect the content 
management of our digital collections. This will include separate data 
integrity check policies for the various collections.
                 <greek-l>loc deg.restoring information
    Question. Does LOC have a plan for restoring information that has 
been deleted or corrupted?
    Answer. LOC protects its data from loss by deletion or corruption 
by making multiple copies of the data in multiple locations. Even if 
information has been accidentally deleted from disk by a user or 
administrator and marked as deleted, the file is not physically deleted 
from the primary or secondary copy. It can be recovered. If data is 
deleted or corrupted on disk it can be retrieved and restored from the 
primary copy or the remote secondary copy. Business and Web data are 
backed up through scheduled processes using industry standard backup 
and recovery software. Partial and full backups are taken and a second 
copy is written to a remote cite. This data can be recovered using the 
backup and recovery software.
    Long-term storage of preservation data is stored on magnetic tape. 
This data is ingested to a large disk cache where it goes through a 
workflow process and then is written to tape and a second copy is 
written to a remote site. The data is stored in a manner that makes 
recall and use of this data fairly simple.
          <greek-l>loc deg.consolidation of data center assets
    Question. According to a recently released GAO report entitled 
``Opportunities to Reduce Potential Duplication in Government Programs, 
Save Tax Dollars, and Enhance Revenue (the Duplication Report)'', ``In 
recent years, as Federal agencies modernized their operations, put more 
of their services online, and increased their information security 
profiles, they have demanded more computing power and data storage 
resources. According to OMB, the number of Federal data centers grew 
from 432 in 1998 to more than 2,000 in 2010. These data centers often 
house similar types of equipment and provide similar processing and 
storage capabilities. These factors have led to concerns associated 
with the provision of redundant capabilities, the underutilization of 
resources, and the significant consumption of energy.''
    In February 2010, the administration launched the Federal Data 
Center Consolidation initiative and issued guidance for Federal CIO 
Council agencies that called for agencies to inventory their data 
center assets, develop consolidation plans throughout fiscal year 2010, 
and integrate those plans into agency fiscal year 2012 budget 
submissions.
    Is LOC working to reduce the size of its data center footprint?
    Answer. Unlike most agencies LOC is in the business of collecting 
and preserving data for future generations. The amount of LOC data 
grows each year as more and more collection and preservation data is 
acquired and stored in LOC systems. LOC is continually planning and 
reworking the layout of the Data Center to maintain or shrink the 
footprint.
    Wherever possible, LOC backs data up on tape rather than spinning 
disk, which uses more space and power. LOC also continually migrates 
data on tape to the latest (higher-density tape) technologies 
available. This allows LOC to grow collection and preservation data and 
maintain the same footprint in the data center.
    In an effort to reduce LOC data center footprint to allow for 
future data storage growth, LOC has recently implemented a 
virtualization infrastructure. The key benefit of this infrastructure, 
as it relates to the question, is that centralizing and reducing the 
number of physical servers will reduce the required amount of power, 
air conditioning, and physical space allocations. LOC is also in the 
process of implementing new network switches in the primary data center 
(Madison Building.). Implementing these newer technology switches will 
reduce the overall number of data center switches from 10 to 2. This 
will further reduce the network infrastructure footprint in the data 
center.
    Last, in an effort to optimize the data centers operational 
capabilities, LOC recently performed a study of all four LOC data 
centers. This study examined the current environment with regards to 
space allocation, power consumption and cooling capabilities. This 
information was used to project future space and environmental 
requirements based on current growth rates.
    Question. How does LOC protect and backup its electronic data?
    Answer. LOC protects its data by making multiple copies of the data 
in multiple locations. LOC uses different strategies according to the 
needs of the different categories of information:
      Business and Web Data.--Business and Web data are backed up 
        through scheduled processes using industry standard backup and 
        recovery software. Partial and full backups are taken and a 
        second copy is written to a remote site.
      Long-term Storage of Preservation Data.--Currently, LOC takes in 
        approximately 120 TB of preservation data a month. This will 
        increase to approximately 200 TBs a month by the end of 2011. 
        LOC has chosen to store this data on magnetic tape. Tape is a 
        reliable, mature technology that has an error rate several 
        magnitudes smaller than disk. It also has a very dense 
        footprint and consumes very little power. This data is ingested 
        to a large disk cache where it goes through a workflow process 
        and then is written to tape and a second copy is written to a 
        remote site. The data is stored in a manner that makes recall 
        and use of this data fairly simple.
      Disk Replication and Disaster Recovery.--To support Continuity of 
        Operations Planning and disaster recovery, mission-critical 
        application data is replicated on disk at a remote site. 
        Bringing these applications on line at the remote site is 
        performed according to a priority set by LOC leadership. For 
        instance, one of the higher-priority applications is the 
        Legislative Information Service (LIS). LIS data is replicated 
        remotely and in the event of a disaster, the application and 
        its data can be brought online within a matter of hours. This 
        data is also protected by complete backup as well.
    Question. What is LOC doing to take advantage of newer, more 
reliable, disk-based storage, and back-up technology which can drive 
down costs by reducing the overall data footprint at data centers?
    Answer. LOC has built into its future technology plans a technology 
refresh that migrates data from older technology to newer, denser, and 
power-saving technology. Over the past 5-7 years LOC has moved from 
using disks that can store 100 GB of data per disk drive to storing 
data on disks that can store 2 TB of data per disk drive. This is a 20-
fold increase in density for nearly the same power requirements. LOC 
continues to look at new disk technologies and assess their 
applicability to LOC needs.
    Regarding back-up technology, LOC has adopted tape technology 
wherever possible. Disks are expensive and require more power and 
cooling than magnetic tapes. Magnetic tape technology provides a 
denser, less power-hungry, less error-prone, and less-expensive 
alternative to spinning disks. It has a known migration path and mature 
methods for assuring data integrity. LOC also has an audit program to 
assure quality of the media and hardware.
       <greek-l>loc deg.cost of protecting electronic information
    Question. What are the costs associated with protecting LOC's 
electronic information? Please submit a breakdown to the subcommittee.
    Answer. The initial cost associated with protecting LOC's 
electronic information is $13.976 million. In addition, there is an 
annually recurring cost of $5.48 million.
                    <greek-l>loc deg.cloud computing
    Question. The Federal CIO Council recently outlined a 25-point plan 
that puts in place a cloud-computing first strategy for all Federal IT. 
The plan boasts that cloud IT infrastructure creates the following 
benefits:
      Economical.--Cloud computing is a pay-as-you-go approach to IT, 
        in which a low initial investment is required to begin, and 
        additional investment is needed only as system use increases.
      Flexible.--IT departments that anticipate fluctuations in user 
        demand no longer need to scramble for additional hardware and 
        software. With cloud computing, they can add or subtract 
        capacity quickly and easily.
      Fast.--Cloud computing eliminates long procurement and 
        certification processes, while providing a near-limitless 
        selection of services.
    Does LOC currently utilize, or plan to implement, a cloud-based IT 
infrastructure to operate and deliver programs to the public?
    Answer. LOC is currently implementing a virtualized environment to 
provide cloud-based IT infrastructure that, while currently planned for 
internal use only, can be adapted to provide public service. Many of 
LOC's public facing services currently run on an internal cloud-based 
infrastructure using shared CPUs, memory, and storage. LOC runs two 
internal hosting environments, the Application Hosting Environment 
(AHE) and the Financial Hosting Environment (FHE). The FHE hosts 
sensitive systems and data. Examples includes the Momentum Financial 
Management System, Health Services Organization (HSO) Medical 
Information Management System (MIMS--sometimes referred to as Medgate, 
Medgate is the actual software name). The AHE hosts most of LOC's other 
applications.
           <greek-l>loc deg.considered programs for the cloud
    Question. Are there particular computer applications like email or 
other programs that LOC is considering moving to the cloud?
    Answer. LOC is evaluating moving the current New Visitor Experience 
(NVE) and MyLOC.gov from a Hosted Environment to a Cloud Environment. 
The NLS/BPH is evaluating placing their Electronic Books on a cloud 
system to enhance downloading electronic books to West Coast States.
    LOC is currently using the cloud to host the Global Legal 
Information Network (GLIN). Moreover, the OSI Digitization Projects 
System is a cloud application using an Application as a Service cloud 
offering from Appian.
    We will continue to monitor the Federal agency guidance being 
developed by the Office of Management and Budget, National Institutes 
of Standards and Technology, and General Services Administration prior 
to broadly implementing any cloud computing initiatives.
                <greek-l>loc deg.sensitive data controls
    Question. What current controls do you have in place to ensure 
sensitive data is not being released to the public?
    Answer. LOC's IT security policies are based on best practices, 
such as the NIST standards. Moreover, LOC uses best practices for 
technical controls using guides from Defense Information Systems Agency 
and the Center for Internet Security to secure servers, routers, 
switches, workstations, Web servers, and databases. LOC uses 
certification testing to ensure that security controls are in place 
before new systems go into production and continuous monitoring 
techniques to ensure that new vulnerabilities are addressed in a timely 
manner. As part of LOC's IT security process, information is evaluated 
to determine sensitivity and the security controls are based on the 
level of sensitivity. Systems with sensitive information are placed 
into a separate environment with more stringent security controls. 
Additionally, LOC is monitoring for unusual data traffic patterns that 
would indicate sensitive data being removed inappropriately from LOC.

                          SUBCOMMITTEE RECESS

    Senator Nelson. This hearing is now concluded.
    [Whereupon, at 3:21 p.m., Thursday, March 31, the hearing 
was concluded, and the subcommittee recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
